No. 20In the

Supreme Court of the United States

JAMES W. ROBERTSON, SR.,
Petitioner,
v.
INTRATEK COMPUTER, INCORPORATED,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Colin Walsh
Wiley Walsh, P.C.
1011 San Jacinto Boulevard,
Suite 401
Austin, TX 78701
(512) 271-5527

Robert J. Wiley
Counsel of Record
Austin Campbell
Rob Wiley, P.C.
2613 Thomas Avenue
Dallas, TX 75204
(214) 528-6500
rwiley@robwiley.com
Attorneys for Petitioner

301119

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Under 41 U.S.C. § 4712, employees of government
subcontractors may not be retaliated against for reporting
violations of laws, rules, or regulations related to the
competition for or negotiation of a federal contract. 41
U.S.C. § 4712(a)(1).
In section (c), titled “Remedy and Enforcement
Authority,” the statute provides a very specific scheme of
rights and remedies and how to enforce them, including
a private cause of action in federal court, district court
enforcement of agency orders, and appellate review. Id.
at § 4712(c). The final subsection of section (c) states: “The
rights and remedies provided for in this section may not
be waived by any agreement, policy, form, or condition of
employment.” Id. at § 4712(c)(7).
The Questions Presented are:
1. Does mandatory compelled arbitration of claims
under 41 U.S.C. § 4712 disrupt the administrative scheme
set up by Congress to remedy and enforce violations of 41
U.S.C. § 4712?
2. Did Congress intend to prohibit enforcement of
mandatory employment arbitration agreements in 41
U.S.C. § 4712, even if the statute does not expressly
refer to arbitration, when it (a) expressly provided for a
federal trial in the remedy and enforcement section and
(b) expressly prohibited waiver of any rights and remedies
provided as a condition of employment?

ii
LIST OF PARTIES
Petitioner, James W. Robertson, Sr. was a plaintiff in
the district court and an appellant in the court of appeals.
Robertson Technologies, Inc. was a plaintiff in
the district court and appellee in the court of appeals.
Robertson Technologies’ claims are not before the Court
in this petition.
Respondent, Intratek Computer, Inc. was a defendant
in the district court and an appellee in the court of appeals.
Allan Fahami was a defendant in the district court
and an appellee in the court of appeals. The claims against
Allan Fahami are not before the Court in this petition.
Roger Hayes Rininger was a defendant in the district
court and an appellee in the court of appeals. The claims
against Roger Rininger are not before the Court in this
petition.

iii
LIST OF RELATED CASES
• Robertson, et al v. Intratek Computer, Inc., et al,
No. 19-50792, U.S. Court of Appeals for the Fifth
Circuit. Judgment entered Oct. 2, 2020.
• Robertson, et al v. Intratek Computer, Inc., et al,
No A-18-CV-373-LY, U.S. District Court for the
Western District of Texas. Judgment entered on
July 30, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
LIST OF RELATED CASES  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Proceedings below . . . . . . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 5
A. This petition should be granted because the
Fifth Circuit’s reading of 41 U.S.C. § 4712
disrupts and threatens the administrative
scheme created by Congress  . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
1.

Prohibiting an employee from going
to court poses an immediate practical
threat to the administrative scheme
set up by Congress for enforcement
of a whistleblower’s rights under
41 U.S.C. § 4712  . . . . . . . . . . . . . . . . . . . . . . . 7

2.

The administrative scheme set up by
Congress for whistleblower retaliation
complaints under 41 U.S.C. § 4712 is
unique and would be made ineffective by
mandatory arbitration . . . . . . . . . . . . . . . . . 10
a. Unlike the mandatory process in
§ 4712, mandatory administrative
schemes that per mit pr ivate
suits if the agency denies relief
or fails to act generally require
notice and/or permission from
the executive agency before a
private suit can be filed  . . . . . . . . . . . . 10
b. Unlike the administrative scheme
in § 4712, the administrative
schemes that permit a private
cause of action if the executive
agency fails to take action within
a certain number of days do not
allow the complainant to join
any agency enforcement action . . . . . . 12

vi
Table of Contents
Page
3.

Because this case involves a unique
administrative apparatus created by
Congress and used by executive agencies
for enforcement of their orders, this
Court should invite the Solicitor General
to file a brief expressing the views of the
United States  . . . . . . . . . . . . . . . . . . . . . . . . 14

B. On the merits, this case presents an
important question of federal law that should
be decided by this Court now: Does Congress
have to explicitly prohibit arbitration
agreements in the text of a statute in order
to preclude waiver of judicial remedies?
Here, the Fifth Circuit’s reading allowing
arbitration conflicts with the text, structure,
and sequencing of the statute . . . . . . . . . . . . . . . 15
1.

Contrary to the Fifth Circuit’s reading,
the text of the nonwaiver provision
at 41 U.S.C. § 4712(c)(7) expressly
prohibits employers from requiring
employees to waive any and all
rights and remedies provided for
in the statute by agreement or as a
condition of employment . . . . . . . . . . . . . . .  17

2.

Contrary to the Fifth Circuit’s reading,
§ 4712 provides for the right and
remedy of a federal jury trial . . . . . . . . . . . 18

vii
Table of Contents
Page
3.

Contrary to the Fifth Circuit’s reading,
the right and remedy of allowing a
complainant to go to federal court is
consistent with the rest of the statute’s
text.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

4.

The Fifth Circuit’s limitation of the word
“remedies” in the nonwaiver provision
to only administrative remedies is
inconsistent with the text of the statute
because it both improperly adds to
and replaces the text . . . . . . . . . . . . . . . . . . 20

5.

The Fifth Circuit’s limitation of the word
“remedies” in the nonwaiver provision
to only administrative remedies is belied
by the sequencing of the statute . . . . . . . . . 22

6.

The Fifth Circuit’s reasoning conflates
“ remedies” w ith “ relief ” and is
internally inconsistent . . . . . . . . . . . . . . . . . 24

7.

The statute in this case is fundamentally
different than the statutes at issue
in the cases relied on by the Fifth
Circuit because in those statutes,
Congress either explicitly encourages
arbitration or does not include the same
clear nonwaiver language as here . . . . . . . 26

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED OCTOBER 2, 2020  . . . . . 1a
Appendix B — ORDER of the UNITED
STATES DISTRICT COURT FOR THE
W E S T E R N DI S T R IC T O F T E X A S ,
AUSTIN DIVISION, FILED JULY 30, 2019 . . . . . . 19a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, AUSTIN
DIVISION, FILED DECEMBER 10, 2018 . . . . . . . . 26a
Appendix D — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
14 Penn Plaza LLC v. Pyett,
556 U.S. 247 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 26, 27
Azar v. Allina Health Servs.,
139 S. Ct. 1804 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Bostock v. Clayton Cnty., Ga,
140 S. Ct. 1731 (2020)  . . . . . . . . . . . . . . . . . . . . . . . . .  17
CompuCredit Corp. v. Greenwood,
565 U.S. 95 (2012) . . . . . . . . . . . . . . . . . . . . . . . . passim
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018)  . . . . . . . . . . . . . . . . . . . . . . 26, 28
Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
New Prime v. Olivieri,
139 S. Ct. 532 (2019) . . . . . . . . . . . . . . . . . . . . . . . 15, 21
Shearson/American Express, Inc. v. McMahon,
482 U.S. 220 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

x
Cited Authorities
Page
Statutes and Other Authorities
29 C.F.R. § 24.113(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 C.F.R. § 24.114(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 C.F.R. § 24.114(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 U.S.C. § 216(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
29 U.S.C. § 626(f)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
29 C.F.R. § 1601.28(a)(3) . . . . . . . . . . . . . . . . . . . . . . . .8, 11
29 C.F.R. § 1626.18(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
29 C.F.R. § 1638.18(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
29 C.F.R. § 1978.114(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 C.F.R. § 1978.114(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
41 U.S.C. § 4712  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
41 U.S.C. § 4712(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
41 U.S.C. § 4712(b) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 23, 24
41 U.S.C. § 4712(c)  . . . . . . . . . . . . . . . . . . . . . 18, 22, 28, 29

xi
Cited Authorities
Page
41 U.S.C. § 4712(c)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 18, 24
41 U.S.C. § 4712(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . passim
41 U.S.C. § 4712(c)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
41 U.S.C. § 4712(c)(4)  . . . . . . . . . . . . . . . . . . . . . . . . passim
41 U.S.C. § 4712(c)(5) . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
41 U.S.C. § 4712(c)(7) . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26, 27
42 U.S.C. § 2000e-5(f)(1) . . . . . . . . . . . . . . . . . . . . . . . 8, 11
48 C.F.R. § 3.908 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
48 C.F.R. § 3.908-6(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Black’s Law Dictionary, 608 (3d Pocket Edition
2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 25
Civil Rights Act, Title VII . . . . . . . . . . . . . . . . . . . . . 26, 27
Laws Enforced by EEOC . . . . . . . . . . . . . . . . . . . . . . . . .11
Public Law 102-166, title I, § 118  . . . . . . . . . . . . . . . 26, 27
Remedy Definition, Merriam-Webster Dictionary . . . . 6

1
James W. Robertson, Sr. petitions this Court for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The Fifth Circuit’s published opinion affirming in
part and reversing in part the district court’s order
compelling arbitration is reported at 976 F.3d 575 (5th
Cir. 2020) and attached as Appendix A at pages 1a – 18a.
The district court opinion adopting the magistrate’s
report and recommendation and compelling arbitration
of all claims is unreported but attached as Appendix B at
pages 19a – 25a. The report and recommendation of the
magistrate recommending that arbitration be compelled
on all claims asserted against Intratek Computer, Inc. and
Allan Fahami is unreported but attached as Appendix C
at pages 26a – 47a.
STATEMENT OF JURISDICTION
The court of appeals entered its judgment on October
2, 2020. App. 1a. Under this Court’s March 19, 2020 order,
deadlines for filing a petition for writ of certiorari were
extended to 150 days from the date of the lower court
judgment. Therefore, this petition is timely filed. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Title 41, United States Code Section 4712 is reproduced
in its entirety in Appendix D at 48a.

2
STATEMENT OF THE CASE
A. Introduction.
This case presents pure questions of statutory
construction and interpretation whose answers will
shape how federal agencies enforce orders issued through
administrative processes set up by Congress and how
Congress drafts legislation.
The facts as related to this petition are not disputed.
Petitioner James W. Robertson, Sr. first started working
for Intratek Computer, Inc. in the summer of 2011. App.
3a. At the time he was hired, Robertson was required, as
a condition of employment to sign a mandatory arbitration
agreement. App. 2a. Robertson alleges that he was fired in
September 2015 for reporting illegal misconduct, including
bribery of Veterans Affairs officials by Intratek’s CEO to
secure government contracts. App. 3a.
Shortly after his termination, Robertson filed a
whistleblower retaliation complaint with the Office of the
Inspector General for the Department of Veterans Affairs
pursuant to the administrative exhaustion requirements
of 41 U.S.C. § 4712. App. 3a.
B. Proceedings below.
Robertson timely filed suit on May 7, 2018. App. 3a. In
the Original Complaint, Robertson alleged whistleblower
retaliation under § 4712 against Intratek Computer, Inc.,
among other claims not at issue here. D. Ct. Dkt. 1-1.
At the time he filed suit, the OIG investigation into the
whistleblower retaliation was still ongoing. App. 3a. In

3
fact, to date, no final determination has ever been issued
by the OIG.
Intratek moved to stay the suit and compel arbitration
based on the mandatory arbitration agreement required
as a condition of employment that Robertson signed. App.
3a. The motion was referred to a magistrate judge for a
report and recommendation. App. 4a. On December 10,
2018, the magistrate judge recommended that Robertson’s
claim under § 4712 against Intratek be compelled to
arbitration. App. 26a. Regarding the § 4712 claim, the
magistrate judge reasoned that the nonwaiver provision
only prohibited waiver of substantive rights, which did
not include the right to a federal trial. App. 33a-40a. The
magistrate judge did not address whether or not the
federal trial provided in the remedy and enforcement
section of the statute was a remedy that could not be
waived under the nonwaiver provision. App. 38a. Further,
the magistrate did not address how compelling arbitration
impacted the other remedies such as district court
enforcement of agency orders or appellate review.
Robertson timely filed objections, but on July 30, 2019,
the district court adopted in full the recommendation
of the magistrate, compelled arbitration and dismissed
the entire case. App. 24a-25a. The district court also
did not address whether the federal trial provided for in
the remedy and enforcement section of the statute was
a remedy that could not be waived under the nonwaiver
provision. Moreover, the district court did not address how
mandatory arbitration would disrupt the administrative
scheme set up by Congress.
Robertson timely appealed. App. 5a. On October 2,
2020, the Fifth Circuit affirmed the trial court’s order

4
compelling arbitration of Robertson’s § 4712 retaliation
claim but reversed concerning the order compelling
arbitration of tortious interference claims asserted
against an individual defendant, Roger Rininger. App. 2a.
The Fifth Circuit did address whether the federal trial
expressly provided for in the remedy and enforcement
section was a nonwaivable remedy. App. 9a. The Fifth
Circuit found that the word “remedies” in the nonwaiver
provision only referred to the administrative remedies
that must be exhausted before filing suit, but not filing
suit itself, which was just a “means to secure” the rights
and remedies of § 4712. App. 9a. Further, the Fifth Circuit
held that the nonwaiver provision did not apply to the jury
trial provided for because the “jury trial is one way to
vindicate a whistleblower’s rights after the whistleblower
exhausts administrative remedies; the jury trial is not
itself a “right” or “remedy” created by § 4712.” App. 9a
(emphasis in original). The Fifth Circuit did not address
the remainder of the statute’s comprehensive procedural
scheme: how its narrow holding concerning “remedies”
affects the rest of the statute, impacts executive agencies’
ability to enforce its orders, and disrupts the series of
enforcement measures set up by Congress.
Robertson has timely filed this petition. The claims
against Roger Rininger are currently stayed in the trial
court pending the outcome of this petition. D. Ct. Dkt. 42.

5
REASONS FOR GRANTING THE PETITION
A. This petition should be granted because the Fifth
Circuit’s reading of 41 U.S.C. § 4712 disrupts and
threatens the administrative scheme created by
Congress.
In § 4712, Congress created an administrative
apparatus for enforcement of the rights and remedies
provided for under the statute. That comprehensive
scheme begins with a complainant filing a complaint with
the appropriate Inspector General’s office of an executive
agency. 41 U.S.C. § 4712(b). The executive agency then
has up to 210 days to issue a report and order providing
or denying relief to the complainant. Id. at § 4712(c)(2).
Once that order is issued or not issued, administrative
remedies are either exhausted or deemed exhausted,
respectively. Id.
At that point, under the Fifth Circuit’s reading of the
nonwaiver provision, any further remedies or actions can
be waived and/or compelled to arbitration. Under the Fifth
Circuit’s holding, the nonwaiver provision prohibiting
waiver of “the rights and remedies provided for in this
section” does not refer to all rights and remedies provided
for, but only “some” rights and remedies. Specifically, the
Fifth Circuit attempts to draw a distinction between the
rights and remedies provided for in the statute and “the
means [the statute] provides to secure” or “vindicate”
them. See App. 9a. As discussed in more detail in section
B.6, infra, that purported distinction does not exist
within the statute and, in any event, conflicts with both
the legal definition and common understanding of the
term “remedy”, which includes “the means of enforcing

6
a right . . . .” Black’s Law Dictionary, 608 (3d Pocket
Edition 2006); see also Remedy Definition, MerriamWebster Dictionary, http://www.merriam-webster.com/
dictionary/remedy (last visited February 15, 2021).
That alleged distinction, if carried through the rest of
the statute, greatly disrupts the specific administrative
enforcement scheme set up by Congress.
The scheme is disrupted by the Fifth Circuit’s reading
because the exhaustion of administrative remedies is
not the end of the administrative enforcement apparatus
Congress created to enforce whistleblower retaliation
under the statute. Indeed, Congress expressly created
a way for the any executive agency involved to seek
enforcement of the administrative orders issued in federal
court and explicitly states that the aggrieved party may
join that suit. See 41 U.S.C. § 4712(c)(4). The ability of an
employer through any agreement, including an arbitration
agreement, to prohibit, as a condition of employment, an
employee from joining in that enforcement suit throws a
wrench into the whole scheme.
Finally, because of the large impact the Fifth Circuit’s
decision will have on the whole administrative enforcement
scheme used by any executive agency, including its ability
to enforce orders it issues against private companies,
the view of the United States on this issue is essential
to determining this case. Therefore, this Court should
invite the Solicitor General to submit a brief expressing
the views of the United States.

7
1.

Prohibiting an employee from going to court
poses an immediate practical threat to the
administrative scheme set up by Congress for
enforcement of a whistleblower’s rights under
41 U.S.C. § 4712.

Reading the statute as a whole, it is clear that
prohibiting an employee from going to court compromises
the administrative scheme set up by Congress. That is
because if the nonwaiver provision stating that “the rights
and remedies provided in this section” means only “some”
rights and remedies may not be waived, then the statue
allows for parallel proceedings. But if the nonwaiver
provision prohibiting waiver of “the rights and remedies
provided in this section” means “all” rights and remedies
provided in this section, then the statutory enforcement
scheme is the only scheme that may be followed and
parallel proceedings with potentially conflicting rulings
would not occur.
For example, under subsection (c)(2), if the agency
issues an order denying relief to a complainant, then
the complainant may file suit in federal court. 41 U.S.C.
§ 4712(c)(2). That same subsection also provides that if
the agency fails to issue an order within 210 days after
the complaint was filed, the complainant may go to court.
Id. Crucially, when a complainant files suit based on the
failure of an agency to issue an order within 210 days,
nothing in the statute requires that the OIG investigation
stop at that point nor does it prohibit the agency from
later issuing an order.1 This is not like the administrative
1. In this case, the investigation is ongoing since no agency
order has ever been issued. See App. 3a (“At the time Robertson
filed suit, [the investigation] remained ongoing.”).

8
process at other agencies, such as the Equal Employment
Opportunity Commission (“EEOC”), where the agency
investigation stops because a complainant must obtain the
right to sue before filing suit. See 42 U.S.C. § 2000e-5(f)
(1); see also 29 C.F.R. 1601.28(a)(3).
Under subsection (c)(4), no matter when the agency
issues an order, if the agency does issue an order, it has the
clear authority and duty to seek enforcement of it through
a lawsuit in federal court if the order is not complied with.
Id. at § 4712(c)(4). This is true even if 210 days have passed
and the complainant has already filed suit. Because of
that fact, an arbitration agreement or any agreement
prohibiting a complainant from going to court disrupts
the administrative scheme set up by Congress. This is
best illustrated by the following example showing how a
private arbitration interferes or even nullifies an executive
agency’s ability to enforce its orders as contemplated by
the statute.
Imagine a whistleblower who signed an arbitration
agreement as a condition of employment with his employer
files a retaliation complaint with the applicable agency’s
OIG. The OIG does not complete its investigation within
210 days. So, the whistleblower files suit in federal court
under subsection (c)(2). The employer then moves to compel
arbitration and the district court grants the motion. One
month later, the OIG completes its investigation, and the
agency issues an order finding that the whistleblower was
retaliated against and grants relief under subsection (c)
(1). The employer then refuses to comply with the order,
citing the ongoing arbitration. Then, because subsection
(c)(4) says the agency “shall file an action for enforcement,”
the agency files suit in federal court for enforcement of

9
its order. Under subsection (c)(4), the whistleblower has
the right to join that lawsuit. Of course, he is already in
arbitration on the same claim, and if he does exercise that
right, he will be compelled to arbitration again. But the
agency cannot be compelled to arbitration because it is not
a signatory to the arbitration agreement. Therefore, there
will necessarily be two parallel proceedings regarding
the same issues taking place simultaneously: one in
arbitration and one in federal court. Such circumstances
lead to unnecessary complications and potential conflicts
in resolution where an executive agency, a federal district
court, and perhaps even a federal appellate court are
all ordering a person/company to do something that an
arbitrator says the person/company does not have to do.
Or vice versa. That cannot be Congress’s intent yet would
become a common occurrence under the Fifth Circuit’s
interpretation when claims are compelled to arbitration
while the executive agency is still investigating.
This needless complication is eliminated entirely if the
word “remedies” in the nonwaiver provision simply means
what it says: that all remedies provided for in section (c)
are not waivable, including the ability of the complainant
to file suit in federal court.
Given the potential disruption to the administrative
scheme for enforcement of the rights provided for under
§ 4712, this case presents important questions of federal
law that should be decided by this Court.

10
2.

The administrative scheme set up by Congress
for whistleblower retaliation complaints under
41 U.S.C. § 4712 is unique and would be made
ineffective by mandatory arbitration.

The administrative scheme Congress set up for § 4712
whistleblower retaliation complaints is unique because it
allows a private cause of action if the agency denies relief
or fails to act within a certain timeframe, does not require
any notice to or permission from the executive agency
investigating the complaint before or after filing suit,
and not only empowers the executive agency to enforce
its orders regardless of whether a private action has been
filed, but also explicitly permits the complainant to join an
agency lawsuit. As shown below, there are statutes that
create administrative schemes with each of those things,
but § 4712 is the only one that provides all three and then
prohibits waiver of rights and remedies.
a.

Unlike the mandatory process in § 4712,
mandatory administrative schemes that
permit private suits if the agency denies
relief or fails to act generally require notice
and/or permission from the executive
agency before a private suit can be filed.

Congress has set up other administrative schemes
that provide for a private cause of action if the agency
finds against the complaint or if the agency fails to act.
For example, the EEOC is charged with investigating
and enforcing the Civil Rights Act of 1964, the Americans
with Disabilities Act, the Age Discrimination in Employment
Act, the Genetic Information Nondiscrimination Act, the
Pregnancy Discrimination Act, and the Equal Pay Act

11
against private employers who violate those laws. See
Laws Enforced by EEOC, EEOC.gov, available at https://
www.eeoc.gov/statutes/laws-enforced-eeoc (last visited
February 21, 2021). Each of those statutes provides a
private cause of action if the agency does not provide relief
or fails to act within a certain amount of time, but for all
of them (except the EPA and the ADEA), a charging party
must first receive a right to sue from the EEOC. See 42
U.S.C. § 2000e-5(f)(1); see also 29 C.F.R. 1601.28(a)(3).
The EPA does not require a right to sue because the EPA
dos not have a mandatory exhaustion requirement. See
29 U.S.C. § 216(b) (detailing right of action for EPA and
FLSA violations). Similarly, under the ADEA, a party can
sue 60 days after filing a charge, but once the EEOC finds
out about the lawsuit it will stop processing the charge.
See 29 C.F.R. § 1626.18(d).
Mandatory arbitration does not disrupt that type of
administrative scheme. In such a scheme, the executive
agency has denied relief and will take no further
action, given permission to sue and ceased processing/
investigating the complaint, or it ceases processing
a complaint once a private suit is filed. See 29 C.F.R.
1601.28(a)(3); 29 C.F.R. § 1638.18(d). Accordingly, no
situation would arise where the complainant files suit
first and gets compelled to arbitration only to have the
executive agency file its own enforcement action later.
Therefore, no situation would arise where two parallel
proceedings are occurring in two different forums over
the same claims.
The same is not true of § 4712. Section 4712 provides
a private cause of action if the agency denies relief. See
41 U.S.C. § 4712(c)(2). In that situation, there would be no
danger of parallel proceedings because the agency has

12
finished with the charge. However, § 4712 also provides for
a private cause of action if the agency takes more than 210
days to issue an order. Id. In that situation, unlike with the
EEOC, a complainant does not need to seek a right to sue,
request permission, or even notify the executive agency
that they are filing suit. Id. Further, unlike the EEOC
regulations, nothing in § 4712 or the regulations regarding
the previous pilot program at 48 C.F.R. 3.9082 state that
filing suit stops any agency investigation or action. Id.;
see also 48 C.F.R. § 3.908-6(b). Therefore, unlike with the
EEOC administrative enforcement scheme, arbitration
of the complainant’s claim under § 4712 would disrupt
the administrative enforcement scheme. Perhaps in
recognition of this fact, Congress expressly prohibited
waiver of any and all rights and remedies provided for
through any agreement or condition of employment.
b.

Unlike the administrative scheme in
§ 4712, the administrative schemes that
permit a private cause of action if the
executive agency fails to take action
within a certain number of days do not
allow the complainant to join any agency
enforcement action.

There is another type of administrative scheme
Congress has used to allow for a private cause of action
in retaliation complaints. In this type of administrative
scheme, Congress states that a complainant may bring a
2. Prior to becoming permanent in 2016, the whistleblower
protections in 41 U.S.C. § 4712 were part of a four year “Pilot
Program for Enhancement of contractor protection from reprisal
for disclosure of certain information.”

13
private cause of action only if the executive agency fails
to take action for a certain number of days. However, the
complainant must also give the agency notice.
This is not an uncommon scheme with whistleblower
complaints investigated by OSHA. For example, this
scheme governs whistleblower retaliation under § 211
of the Energy Reorganization Act (“ERA”) and under
the Surface Transportation Assistance Act (“STAA”).
See 29 C.F.R. 24.114(a) (stating that a complainant has
the right to file suit if the Secretary does not issue an
order within one year of the complaint under the ERA);
29 C.F.R. 1978.114(a) (providing private cause of action if
no order within 210 days). Under the ERA regulations,
a complainant must provide fifteen days’ notice to the
executive agency before filing suit and then provide the
file stamped complaint to the agency after filing suit. See
29 C.F.R. § 24.114(b). Under the STAA, if a complainant
files suit because of lack of action, the complainant must
provide within seven days of filing, a copy of the complaint
to a number of different agencies. Id. at § 1978.114(b).
Again, that is a different statutory scheme than under
§ 4712, which does not require notice before or after the
complaint is filed.
There is yet another important difference between this
administrative scheme and the one in § 4712. Unlike under
§ 4712, a complainant does not have the statutory ability to
join any enforcement action brought by the agency under
the ERA or STAA. See 29 C.F.R. § 24.113(a); 29 C.F.R.
§ 1978.114(a) (STAA regulations). While under the ERA,
a complainant can file their own enforcement action, that
is not the same thing as joining the government in a suit.
Under § 4712 however, the statute explicitly provides for

14
a complainant to “join in an action filed by the head of the
executive agency.” 41 U.S.C. § 4712(c)(4).
This difference is crucial because an arbitration
agreement would not disrupt the ERA and STA A
administrative schemes since a complainant cannot join
the government. However, an arbitration agreement
would disrupt the § 4712 administrative scheme. Such an
agreement would disrupt that scheme because, while the
statute explicitly permits the party to “join in an action,”
an arbitration agreement would waive that right and
remedy and forcibly sever the complainant’s claims from
the enforcement action causing parallel proceedings in
different forums to occur. Perhaps in recognition of that
disruption, Congress explicitly prohibited waiver of any
rights and remedies by any agreement or condition of
employment.
3.

Be c au s e t h i s c a s e i n vol ve s a u n ique
administrative apparatus created by Congress
and used by executive agencies for enforcement
of their orders, this Court should invite the
Solicitor General to file a brief expressing the
views of the United States.

As indicated above, this case implicates the complex
administrative scheme set up by Congress to enforce
agency orders regarding whistleblower retaliation
under 41 U.S.C. § 4712. It appears to be unique in its
administrative enforcement scheme because it not only
provides a private cause of action if the agency denies
relief or takes too long, but it also does not require the
agency to stop investigating and allows a complainant
to join as a party in a government enforcement action.

15
Permitting arbitration under this unique administrative
scheme results in a high probability for disruption.
Therefore, this Court should consider inviting the Solicitor
General to provide the views of the United States as to
whether arbitration agreements or any conditions of
employment that waive the rights and remedies provided
for by § 4712 would disrupt the administrative scheme
executive agencies must use.
B. On the merits, this case presents an important
question of federal law that should be decided by
this Court now: Does Congress have to explicitly
prohibit arbitration agreements in the text of
a statute in order to preclude waiver of judicial
remedies? Here, the Fifth Circuit’s reading allowing
arbitration conflicts with the text, structure, and
sequencing of the statute.
“If courts felt free to pave over bumpy statutory texts
in the name of more expeditiously advancing a policy
goal, we would risk failing to take account of legislative
compromises essential to a law’s passage and, in that way,
thwart rather than honor the effectuation of congressional
intent.” New Prime v. Olivieri, 139 S. Ct. 532, 543 (2019);
see also Azar v. Allina Health Servs., 139 S. Ct. 1804, 1815
(2019) (“[C]ourts aren’t free to rewrite clear statutes under
the banner of our own policy concerns.”). In New Prime,
Justice Gorsuch, writing for a unanimous court, held that
the text of the FAA prohibited mandatory arbitration
of claims by independent contractors of transportation
companies. New Prime, 139 S. Ct. at 544. The opinion
analyzed the plain meaning of the statutory text, including
its word choice and sequencing. Id. at 537–45 (“Given the
statute’s terms and sequencing, we agree with the First
Circuit . . . .”).

16
Further, this Court has never held that Congress must
explicitly use “magic words” to prohibit arbitration in
order to evince an intention to preclude waiver of judicial
remedies. Justice Sotomayor made this fact clear in her
concurrence in the CompuCredit case:
The majority opinion contrasts the liability
provision of the Act with other, more recently
enacted statutes that expressly disallow
arbitration. I do not understand the majority
opinion to hold that Congress must speak
so explicitly in order to convey its intent to
preclude arbitration of statutory claims. We
have never said as much, and on numerous
occasions have held that proof of Congress’
intent may also be discovered in the history or
purpose of the statute in question.
CompuCredit Corp. v. Greenwood, 565 U.S. 95, 109 (2012)
(Sotomayor, J., concurring).
This case presents the perfect opportunity for the
Court to address what Congress must do to “evince[] an
intention to preclude waiver of judicial remedies” or to
“preclude a waiver of a judicial forum” and whether that
includes explicitly prohibiting arbitration. See Mitsubishi
Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S.
614, 628 (1985); Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20, 26 (1991); Shearson/American Express, Inc.
v. McMahon, 482 U.S. 220, 227 (1987).

17
1.

Contrary to the Fifth Circuit’s reading, the
text of the nonwaiver provision at 41 U.S.C.
§ 4712(c)(7) expressly prohibits employers from
requiring employees to waive any and all rights
and remedies provided for in the statute by
agreement or as a condition of employment.

The Fifth Circuit’s reasoning that the nonwaiver
provision only prohibits waiver of some of the rights and
remedies provided for in the statute is explicitly belied
by the statute’s text. Subsection (c)(7) states as follows:
Rights and remedies not waivable . – The
rights and remedies provided for in this section
may not be waived by any agreement, policy,
form, or condition of employment.
41 U.S.C. § 4712(c)(7). As plainly seen, the text of this
nonwaiver provision does not differentiate or exclude from
coverage any specific types or forms of agreements or
conditions of employment, such as arbitration agreements.
Therefore, under the traditional canons of construction,
this nonwaiver provision should be read and applied
broadly. See, e.g., Bostock v. Clayton Cnty., Ga, 140 S. Ct.
1731, 1747 (2020):
Nor is there any such thing as a “canon of donut
holes,” in which Congress’s failure to speak
directly to a specific case that falls within a
more general statutory rule creates a tacit
exception. Instead, when Congress chooses not
to include any exceptions to a broad rule, courts
apply the broad rule.

18
Thus, the question then becomes whether or not a
federal jury trial is a right or remedy provided for in
the statute. If it is a right or remedy provided for in the
statute, then it cannot be waived by “any agreement,
policy, form, or condition of employment” under the
nonwaiver provision of § 4712(c). As shown in the next
section of this petition, the ability to request a federal jury
trial is a “right or remedy provided for” under the statute.
2.

Contrary to the Fifth Circuit’s reading, § 4712
provides for the right and remedy of a federal
jury trial.

Section (c) of the statute is titled “Remedy and
Enforcement Authority.” That section creates an
administrative scheme that provides a very specific list
of rights and remedies. For example, subsection (c)(1)
requires the head of the relevant executive agency to
decide within 30 days of the Inspector General’s report
whether a violation has occurred and then lists the types
of remedies and relief available, including reinstatement,
back pay, other compensatory damages, employment
benefits, and attorneys’ fees and costs. 41 U.S.C. § 4712(c)
(1).
Subsection (c)(2) is titled “Exhaustion of remedies.” Id.
at § 4712(c)(2). That section sets out deadlines for issuing
the IG’s report, when administrative remedies are deemed
exhausted if no report is issued, and then details the
rights and remedies available when those administrative
remedies are exhausted and relief denied. Id. On that
account, the statute’s remedy is clear, providing explicitly
for a federal trial, by jury if requested:

19
[T]he complainant may bring a de novo action at
law or equity against the contractor or grantee
to seek compensatory damages and other relief
available under this section in the appropriate
district court of the United States, which shall
have jurisdiction over such an action without
regard to the amount in controversy. Such an
action shall, at the request of either party to the
action, be tried by the court with a jury.
41 U.S.C. § 4712(c)(2). In other words, the statue provides
for the right and remedy of a federal trial for complainants
under § 4712 if the agency denies relief or if the agency
fails to act within a certain time.
3.

Contrary to the Fifth Circuit’s reading, the
right and remedy of allowing a complainant to
go to federal court is consistent with the rest
of the statute’s text.

The right and remedy of going to federal court if
relief is denied is consistent with the text, structure, and
sequencing of the rest of the statute. Indeed, the statute
only provides one other remedy for a complainant if the
executive agency denies relief. That right and remedy
is found in subsection (c)(5), which allows “[a]ny person
adversely affected by an order issued under paragraph
(1) [to] obtain review” in the applicable federal court of
appeals. 41 U.S.C. § 4712(c)(5). In short, if relief is denied,
a complainant can go to federal district court or to federal
appellate court.
Similarly, the only right and remedy provided for in
the statute to an employee who obtains relief from the head

20
of the executive agency is to file an action in federal court
for enforcement of the orders or to hope that the executive
agency files such an enforcement action and then join in
that action. Id. at (c)(4).
Likewise, appellate review is the only right and
remedy provided for in the statute to an employer
“adversely affected by an order.” Id. at (c)(5). Finally,
the only right and remedy for an employer against a
complainant who does not comply with an order issued
by the executive agency is to file an enforcement action
in federal district court. Id. at (c)(4).
In other words, the only rights and remedies provided
for in the statute for either a complainant or employer—
outside of merely filing a complaint with an Inspector
General—expressly involve the right and remedy of going
to federal court, whether at the district or appellate level.
As explained in the next section of this petition, the Fifth
Circuit’s reading of the nonwaiver provision would permit
waiver of all of the above rights and remedies. That cannot
be correct when Congress has evinced such a strong
preference for judicial remedies and then prohibited
waiver of any remedies provided for in the statute.
4.

The Fifth Circuit’s limitation of the word
“remedies” in the nonwaiver provision to
only administrative remedies is inconsistent
with the text of the statute because it both
improperly adds to and replaces the text.

In ruling that the § 4712(c)(7) nonwaiver provision
does not apply to arbitration agreements required as
conditions of employment, the Fifth Circuit held that the

21
word “remedies” in the nonwaiver provision only applied
to administrative remedies that were “created by” the
statute. App. 9a (“[A] jury trial is one way to vindicate a
whistleblower’s rights after the whistleblower exhausts
administrative remedies; the jury trial is not itself a
“right” or “remedy” created by § 4712.”). This narrow
reading ignores both the text of the statute and its
sequencing.
First, here is the nonwaiver provision in its entirety:
Rights and remedies not waivable . – The
rights and remedies provided for in this section
may not be waived by any agreement, policy,
form, or condition of employment.
41 U.S.C. § 4712(c)(7). The Fifth Circuit’s reading
both adds and replaces words that Congress carefully
chose and thereby “fail[s] to take account of legislative
compromises essential to a law’s passage and, in that
way, thwart[s] rather than honor[s] the effectuation of
congressional intent.” See New Prime, 139 S. Ct. at 543.
Specif ically, the Fifth Circuit adds the word
“administrative” as a modifier to the word “remedies”
despite no such limitation existing in the actual text.
App. 9a. Then the Fifth Circuit replaces the expansive
phrase “rights and remedies provided for” with the more
limiting phrase “rights and remedies created by.” App.
9a. The effect of adding that particular phrase—“created
by”—was to rewrite the statute in a way that brings
it more in line with the phrasing used by this Court in
CompuCredit, discussed infra, where this Court found
that the particular statute with the nonwaiver provision

22
did not “create” a right to go to federal court, so the
nonwaiver provision did not apply. See CompuCredit,
565 U.S. at 100-01. As discussed below in section B.8, the
CompuCredit case is, in actuality, entirely distinguishable.
In fact, when read as a whole, CompuCredit supports
finding that Congress intended to prohibit mandatory
arbitration agreements because the drafting of § 4712
appears to take into account the issues the CompuCredit
Court had with finding a prohibition on waiving judicial
remedies. But before that case is analyzed, it is necessary
to understand the sequencing of § 4712(c) and why the
Fifth Circuit’s reading irreconcilably conflicts with it.
5.

The Fifth Circuit’s limitation of the word
“remedies” in the nonwaiver provision to
only administrative remedies is belied by the
sequencing of the statute.

As described in the section B.3 above, § 4712 provides
several remedies to individuals and employers. However,
except for filing a complaint with the appropriate Inspector
General, all of the remedies provided for in the statute that
a complainant or employer may pursue explicitly involve
in one way or another federal court. See generally, 41
U.S.C. § 4712(c).
Subsection (a) creates the basic statutory right to be
free from retaliation for engaging in certain whistleblower
activity. 41 U.S.C. § 4712(a); see also App. 9a. Subsection
(b) then creates the administrative process that a
complainant must utilize prior to receiving or being able
to pursue any of the remedies provided for in subsection
(c). Id. at § 4712(b).

23
Subsection (c) then provides all of the remedies
available. It is explicitly titled “Remedy and Enforcement
Authority.” Id. at § 4712(c). Contrary to the Fifth Circuit’s
restricted reading, this section provides for much more
than just the exhaustion of administrative remedies.
Subsection (c), among other things, provides for (1) the
types of damages and relief that the executive agency
can order, (2) when exhaustion of administrative remedies
occurs, (3) a de novo private cause of action in federal
court (including the ability to request a jury), (4) making
IG determinations and agency orders admissible, (5)
district court enforcement of agency orders, (6) setting
the burden of proof as contributing factor, and (7)
appellate court review of agency orders. Id. at § 4712(c).
After providing for all of those things, only then does the
statute, in subsection (c)(7), prohibit waiver of the rights
and remedies just provided for in that section. Id.
Despite the nonwaiver provision following all of the
items listed above, under the Fifth Circuit’s reading, that
expansive provision counterintuitively only applies to the
first two items—agency ordered relief and timeframes
for exhaustion—and to the rights and remedies in the
two preceding sections. Such a reading needlessly and
completely ignores the structure and sequencing of the
statute. Had Congress intended to only prohibit waiver
of administrative remedies or the right to be free from
retaliation, it would have placed the nonwaiver provision
in subsection (b) where those are the only rights and
remedies provided for. But it did not. Therefore, under
standard canons of statutory construction, the nonwaiver
provision must apply to more than just those two things.
Further, as described in the next section, the distinction
the Fifth Circuit attempts to draw between remedies and
the means of securing relief does not really exist.

24
6.

The Fifth Circuit’s reasoning conf lates
“remedies” with “relief” and is internally
inconsistent.

In holding that only administrative remedies are
nonwaivable under the nonwaiver provision, the Fifth
Circuit conflates the word “remedy” with the word “relief.”
Twice, the Fifth Circuit attempts to draw a distinction
between the nonwaivable administrative remedies
provided for in the statute and a waivable federal jury
trial, which the Fifth Circuit describes as “the means
[the statute] provides to secure” or “vindicate” the rights
and remedies provided. See App. 9a. But in this statute,
the “rights and remedies provided for” include the means
to secure them. What the Fifth Circuit is actually doing
is using the word “remedies” inconsistently throughout
the statute to mean, at some points, “judicial remedies”
and at others, to mean “relief” obtained via the remedies
provided. But again, the statute only talks of remedies and
prohibits waiving any of them. See 41 U.S.C. § 4712(c)(7).
By way of illustration, the Fifth Circuit agrees that the
administrative remedies provided for in the statute may not
be waived by any agreement or condition of employment.
App. 9a. The administrative remedies provided for in the
statute include requiring a complainant to file a complaint
with the appropriate IG within a certain period of time.
41 U.S.C. § 4712(b). The IG then investigates and issues
a report to the head of the applicable executive agency.
Id. at § 4712(c)(1). The head of that agency then issues
or does not issue an order providing certain specified
types of relief. Id. That entire process comprises the
“administrative remedies” provided for in the statute. Id.
at § 4712(c)(3) (describing exhaustion of administrative

25
remedies as occurring after the executive agency issues
or fails to issue an order). That entire process is not
waivable as a remedy under the statute. Id. at § 4712(c)(7);
see also App. 9a. And an employer, for example, could not
prohibit as a condition of employment, an employee from
filing a complaint with the appropriate IG because such
a prohibition would necessarily preclude the employee
from being able to obtain any nonwaivable relief that the
executive agency is expressly allowed to provide. Since
the Fifth Circuit acknowledges that a jury trial is one of
the means of securing relief under the statute, it is, for
the same reasons a remedy under the statute.
As stated above, the distinction the Fifth Circuit
was really drawing was between “relief” and the means
of securing that relief. If the nonwaiver provision stated
that “the rights and relief provided for could not be
waived” then the Fifth Circuit’s interpretation would be
correct. But the nonwaiver provision does not talk about
prohibiting waiver of “rights and relief”; that provision
only prohibits waiver of “rights and remedies.” And since
the word “remedies” as used in the statute includes the
means of securing the rights in the statute, a jury trial is
one of the remedies that cannot be waived.
That the word “remedies” is properly understood
as including the means used to secure rights or relief is
bolstered by both the legal definition of “remedy” and
the common definition of remedy. Black’s Law Dictionary
defines “remedy” as “the means of enforcing a right
or preventing or redressing a wrong.” Black’s Law
Dictionary, 608 (3d Pocket Edition 2006). The MerriamWebster Dictionary’s third definition of “remedy” is “the
legal means to recover a right or to prevent or obtain

26
redress for a wrong.” Remedy Definition, MerriamWebster Dictionary, http://www.merriam-webster.com/
dictionary/remedy (last visited February 15, 2021).
In other words, the legal as well as the common, plain
meaning of “remedy” includes the means of securing or
vindicating a right. Therefore, under the Fifth Circuit’s
own logic, the fact that “a jury trial is one way to vindicate
a whistleblower’s statutory rights” establishes that it
is a nonwaivable remedy under § 4712. Therefore, the
Fifth Circuit’s reasoning is internally inconsistent and
contradicted by the text and meaning of the statute.
7.

The statute in this case is fundamentally
different than the statutes at issue in the cases
relied on by the Fifth Circuit because in those
statutes, Congress either explicitly encourages
arbitration or does not include the same clear
nonwaiver language as here.

The Fifth Circuit mainly relied on three Supreme
Court cases in rejecting the plain meaning of the statute.
First, it discussed 14 Penn Plaza LLC v. Pyett, 556 U.S.
247 (2009), which is an ADEA case. Second, it analyzed
CompuCredit v. Greenwood, 565 U.S. 95 (2012), which is
a Credit Repair Organization Act case. Finally, it relied
on Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612 (2018). None
of these cases change the statutory analysis above for at
least three reasons.
First, any cases involving the ADEA, Title VII, the
ADA, or Section 1981 are not applicable to this statute
because Congress has expressly encouraged the use of
arbitration to resolve disputes under those statutes since
1991. Public Law 102-166, title I, § 118 from November
21, 1991 states:

27
Where appropriate and to the extent authorized
by law, the use of alternative means of dispute
resolution, including . . . arbitration, is
encouraged to resolve disputes arising under
the Acts or provisions of Federal law amended
by this title.
Pub. L. 102–166, title I, § 118, Nov. 21, 1991, 105 Stat.
1081 (emphasis added). The statutes amended include
the ADEA, Title VII, the ADA, and 42 U.S.C. § 1981. Id.
Second, not a single one of those three main cases
or (for that matter) any of the cases cited by the Fifth
Circuit, the magistrate court, the district court, or
Respondent that involve compelling arbitration include
a similar nonwaiver provision. For example, in 14 Penn
Plaza, under the ADEA, the nonwaiver provision only
prohibited waiver of “any right or claim under this
chapter.” See 14 Penn Plaza, 556 U.S. at 259 (quoting 29
U.S.C. § 626(f)(1)). This Court found that an “agreement
to arbitrate is not the waiver of a substantive right as that
term is employed in the ADEA.” Id. (emphasis added).
Therefore, even if Congress had not already explicitly
blessed arbitration agreements, the terms as used in the
statute do not prohibit it. See id. Crucially, in this case
the nonwaiver provision prohibits waiver of “rights and
remedies” and then specifies in the very same section
titled “Remedy and Enforcement Authority” exactly what
remedies are available, including the remedy of a federal
jury trial. See 41 U.S.C. § 4712(c)(7) (emphasis added).
Therefore, 14 Penn Plaza does not compel arbitration in
this case. Indeed, applying the same reasoning as Justice
Thomas regarding how a particular statute employs the
terms it uses, the nonwaiver provision clearly applies to

28
federal trials because federal trials are a “remedy” as that
term is employed in § 4712. Again, this Court’s precedent
contradicts the Fifth Circuit’s reasoning.
The nonwaiver provision in the CROA, which
CompuCredit examined, likewise, only prohibited waiver
of “any right of the consumer under this subchapter.”
CompuCredit Corp., 565 U.S. at 99. But as this Court
explained, the subchapter with the nonwaiver provision
did not create or provide the right to sue in court, but only
the right to receive a disclosure statement. Id. Moreover,
even in the civil liability subchapter, the statute did not
actually specify the right to sue in any court, but only
established a private cause of action and the potential for
liability. Id. at 100-01. Here, by contrast, § 4712(c) provides
for both the specific remedy of going to federal court as
well as requesting a jury before, explicitly, in the same
section, prohibiting waiver of any remedies provided. See
41 U.S.C § 4712(c). Again, applying the same reasoning
as Justice Scalia in CompuCredit regarding statutory
structure and specificity, the nonwaiver provision clearly
prohibits waiver of the remedy of going to federal court.
Here, both concerns are addressed because the specific
section at issue both expressly provides for the remedy of
going to federal court and in the same section prohibits
waiver of any remedies provided for in that section. See
CompuCredit Corp., 565 U.S. at 99-101.
Similarly, in Epic Systems, this Court found that the
National Labor Relations Act did not preclude enforcement
of individual arbitration agreements concerning FLSA
violations that prohibited collective actions because
“Section 7 [of the NLRA] doesn’t speak to class and
collective action procedures in the first place” and the

29
FLSA “does not . . . prohibit individualized arbitration
proceedings.” Epic Sys. Corp., 138 S. Ct. at 1626. Again,
lack of specificity regarding remedies available is not
an issue here because the remedy section specifically
provides for filing suit in federal court in subsection (c)
and then prohibits waiver of any remedies provided for in
that very same section. See 41 U.S.C. § 4712 (c).
The third reason that these cases are distinguishable
is that they all involve quite different statutory schemes
and administrative procedures than what is found in
§ 4712. As discussed above in section A, the administrative
scheme Congress created for § 4712 is unique among
whistleblower statues because of the rights and remedies
it provides for in its text. Therefore, other cases involving
other statutory schemes that have a different structure,
provide for different remedies that do not include a federal
trial, and do not prohibit waiver of any of those remedies
are of limited value in discerning Congressional intent
in § 4712.
Because this case presents important issues regarding
statutory construction and what is required for Congress
to preclude waiver of judicial remedies, this petition should
be granted.

30
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for writ of certiorari. Further, this Court
should invite the Solicitor General at this stage to provide
the views of the United States as to whether arbitration
agreements or any conditions of employment that waive
the rights and remedies provided for by § 4712 would
disrupt the administrative scheme executive agencies
must use.
Respectfully submitted,
Colin Walsh
Robert J. Wiley
Wiley Walsh, P.C.
Counsel of Record
1011 San Jacinto Boulevard,
Austin Campbell
Rob Wiley, P.C.
Suite 401
2613 Thomas Avenue
Austin, TX 78701
Dallas, TX 75204
(512) 271-5527
(214) 528-6500
rwiley@robwiley.com
Attorneys for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED OCTOBER 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
October 2, 2020, Filed
No. 19-50792
JAMES W. ROBERTSON, SR.,
Plaintiff—Appellant,
ROBERTSON TECHNOLOGIES, INCORPORATED,
Appellant,
versus
INTRATEK COMPUTER, INCORPORATED;
ALLAN FAHAMI; ROGER HAYES RININGER,
Defendants—Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:18-CV-373
Before Wiener, Engelhardt, and Oldham, Circuit Judges.
A ndrew S. Oldham, Circuit Judge:

2a
Appendix A
The question presented is whether a federal
whistleblower statute, 41 U.S.C. § 4712, renders
unenforceable an arbitration agreement between James
Robertson and his former employer, Intratek. It does
not. The district court therefore correctly enforced the
arbitration agreement between Robertson and Intratek.
But the district court erred in compelling arbitration of
claims not covered by that agreement. So we affirm in
part, reverse in part, and remand for further proceedings.
I.
Intratek conditioned Robertson’s employment on
his willingness to sign an arbitration agreement. That
agreement said:
I hereby agree, pursuant to the policy, to
submit to binding arbitration any employment
related controversy, dispute or claim between
me and the Company, its officers, agents or
other employees, including but not limited
to . . . tort claims . . . and claims for violation
of any federal, state, or other government law,
statute, regulation, or ordinance, except claims
for workers’ compensation and unemployment
insurance benefits.
I understand that by agreeing to arbitration,
I am waiving the right to a trial by jury of the
matters covered by the Arbitration policy.
The “A rbitration policy,” in turn, covered “[a]ny
controversy, dispute or claim between any employee and

3a
Appendix A
the Company, or its officers, agents or other employees
related to employment.” Robertson signed the agreement
on June 17, 2011, and began working on July 11. While at
Intratek, Robertson provided various information and
technology services to the United States Department of
Veterans Affairs (“VA”).
Intratek fired Robertson in September 2015. Not long
after, Robertson filed a whistleblower complaint with the
Office of the Inspector General for the VA. Robertson
alleged that Allan Fahami, Intratek’s CEO, bribed
VA officials to secure lucrative government contracts.
According to the whistleblower complaint, a VA employee
named Roger Rininger accepted bribes from Fahami and
Intratek. An investigation followed. At the time Robertson
filed suit, it remained ongoing.
On May 7, 2018, Robertson filed suit in federal district
court against Intratek, Fahami, and Rininger. Robertson
alleged that Intratek violated 41 U.S.C. § 4712 by firing
him for reporting misconduct. Robertson further alleged
that the defendants tortiously interfered with Robertson’s
business relationships.
Intratek and Fahami moved to stay the suit and
compel arbitration of the claims against them. Rininger—
who worked for the VA—obviously was not a party to the
Intratek-Robertson arbitration agreement. So Rininger
and Robertson “agreed to effectively stay the case as it
pertained to Mr. Rininger” until the court ruled on the
motion to compel arbitration.

4a
Appendix A
The district court referred the matter to a magistrate
judge. The magistrate judge decided that 41 U.S.C.
§ 4712 didn’t bar arbitration of the whistleblower claim.
It also found that all of Robertson’s claims (including,
apparently, those against Rininger) fell within the scope of
the arbitration agreement. Furthermore, the magistrate
judge determined that the case should be dismissed
instead of stayed, as “each of Plaintiff’s claims is subject
to arbitration.”
Robertson filed objections to the magistrate judge’s
recommendation on December 20, 2018. Then, on January
29, 2019, Robertson moved to amend his complaint
and add his company, Robertson Technologies, Inc.
(“Robertsontek”), as a plaintiff. Intratek and Fahami
filed their opposition to Robertson’s objections and his
motion to amend his complaint. Meanwhile, Rininger and
Robertson stipulated that Rininger could wait until 21
days after any ruling on the motion to compel arbitration
before filing an answer to the original complaint.
T he d i st r ic t cou r t a dopt e d t he r ep or t a nd
recommendation of the magistrate judge and denied
Robertson’s motion to amend his complaint. On the motion
to amend, the district court found that “Robertson’s
proposal to add his alter ego, Robertson Technologies, Inc.,
amounts to a tactical maneuver to avert the real possibility
that this action will be compelled to arbitration.” As for the
magistrate judge’s recommendation, the court overruled
all of Robertson’s objections. The court also explained that
“all of Robertson’s claims are subject to arbitration.” Thus
the court granted the motion to compel arbitration and

5a
Appendix A
dismissed the case without prejudice. The court entered
final judgment. Robertson timely appealed.
We review a grant of a motion to compel arbitration de
novo, Dealer Comput. Servs., Inc. v. Old Colony Motors,
Inc., 588 F.3d 884, 886 (5th Cir. 2009), and a denial of leave
to amend pleadings for abuse of discretion, Filgueira v.
U.S. Bank Nat’l Ass’n, 734 F.3d 420, 422 (5th Cir. 2013).
II.
The principal question on appeal is one of first
impression in our Circuit: whether Robertson can use
41 U.S.C. § 4712 to escape the arbitration agreement he
signed. Statutory text says no. So does Supreme Court
precedent. And the legislative history is irrelevant.
A.
In general, federal law requires federal courts to
enforce arbitration agreements. In 1925, Congress
enacted the Federal Arbitration Act (“FA A”) “as a
response to judicial hostility to arbitration.” CompuCredit
Corp. v. Greenwood, 565 U.S. 95, 97, 132 S. Ct. 665, 181
L. Ed. 2d 586 (2012). Section 2 of the FAA provides that
written arbitration agreements are generally “valid,
irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.”
9 U.S.C. § 2. Section 2 thus obligates courts to enforce
arbitration agreements according to their terms “unless
the FAA’s mandate has been overridden by a contrary
congressional command.” CompuCredit, 565 U.S. at 98
(quotation omitted).

6a
Appendix A
To show a “contrary statutory command,” the party
opposing arbitration must show that “Congress intended
to preclude a waiver of a judicial forum” for the claims at
issue. Gilmer v. Interstate/Johnson Lane Corp., 500 U.S.
20, 26, 111 S. Ct. 1647, 114 L. Ed. 2d 26 (1991). If “Congress
intended the substantive protection afforded by a given
statute to include protection against waiver of the right
to a judicial forum,” the Supreme Court has said “that
intention will be deducible from text or legislative history.”
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 628, 105 S. Ct. 3346, 87 L. Ed. 2d 444
(1985).1 Throughout this inquiry, courts should keep “in
mind that ‘questions of arbitrability must be addressed
with a healthy regard for the federal policy favoring
arbitration.’” Gilmer, 500 U.S. at 26 (quotation omitted).
The Court recently “stressed that the absence of any
specific statutory discussion of arbitration or class actions
is an important and telling clue that Congress has not
displaced the Arbitration Act.” Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1627, 200 L. Ed. 2d 889 (2018). The Court
explained:
1. The Court has also indicated that a contrary congressional
command may be discerned from “an ‘inherent conflict’ between
arbitration and [another statute’s] underlying purposes.” Gilmer, 500
U.S. at 26. It’s not clear whether statutory purpose remains a part
of the Court’s prescribed inquiry on this issue. See CompuCredit,
565 U.S. at 95-108 (analyzing issue without considering statutory
purpose). But see id. at 675 (Sotomayor, J., concurring in the
judgment) (stating that purpose remains relevant to this inquiry).
In any event, Robertson hasn’t advanced any argument on statutory
purpose and thus has forfeited the issue. See Cinel v. Connick, 15
F.3d 1338, 1345 (5th Cir. 1994) (“An appellant abandons all issues not
raised and argued in its initial brief on appeal.” (emphasis omitted)).

7a
Appendix A
In many cases over many years, this Court has
heard and rejected efforts to conjure conflicts
between the Arbitration Act and other federal
statutes. In fact, this Court has rejected
every such effort to date (save one temporary
exception since overruled), with statutes
ranging from the Sherman and Clayton Acts
to the Age Discrimination in Employment
Act, the Credit Repair Organizations Act, the
Securities Act of 1933, the Securities Exchange
Act of 1934, and the Racketeer Influenced and
Corrupt Organizations Act.
Ibid. (collecting cases). Thus, the party opposing
arbitration—and urging a congressional command
contrary to the FAA—faces a high bar.
Robertson cannot hurdle it with 41 U.S.C. § 4712. We
start, as always, with the statutory text. See Whitlock v.
Lowe (In re DeBerry), 945 F.3d 943, 947 (5th Cir. 2019).
Section 4712 requires a complainant like Robertson to
exhaust administrative remedies before filing suit. See 41
U.S.C. § 4712(b), (c)(1). And § 4712 further specifies that
administrative remedies are exhausted when the agency
acts or fails to act for specified time periods:
(2) Exhaustion of remedies.—If the head of
an executive agency issues an order denying
relief under [(c)](1) or has not issued an order
within 210 days after the submission of a
complaint under subsection (b), or in the case
of an extension of time under paragraph (b)(2)

8a
Appendix A
(B), not later than 30 days after the expiration
of the extension of time, and there is no
showing that such delay is due to the bad faith
of the complainant, the complainant shall be
deemed to have exhausted all administrative
remedies with respect to the complaint, and the
complainant may bring a de novo action at law
or equity against the contractor or grantee to
seek compensatory damages and other relief
available under this section in the appropriate
district court of the United States, which shall
have jurisdiction over such an action without
regard to the amount in controversy. Such an
action shall, at the request of either party to
the action, be tried by the court with a jury. An
action under this paragraph may not be brought
more than two years after the date on which
remedies are deemed to have been exhausted.
Id. § 4712(c)(2). Robertson wrenches out of context the
second sentence of this paragraph—“[s]uch an action
shall, at the request of either party to the action, be tried
by the court with a jury”—and says it provides him a
freestanding “right” or “remedy” to a jury trial. Then he
argues that his jury trial “right” or “remedy” cannot be
waived in an employment agreement:
(7) Rights and remedies not waivable.—The
rights and remedies provided for in this section
may not be waived by any agreement, policy,
form, or condition of employment.

9a
Appendix A
Id. § 4712(c)(7). Thus, Robertson concludes, § 4712(c)(2)
and (7) preclude Intratek from taking away his “right”
or “remedy” of a jury trial by enforcing the arbitration
agreement.
Robertson confuses the rights and remedies created
by § 4712 with the means it provides to secure them.
Section 4712 creates whistleblower rights: “An employee
of a contractor, subcontractor, grantee, or subgrantee
or personal services contractor may not be discharged,
demoted, or otherwise discriminated against as a
reprisal for” blowing the whistle on certain governmentcontracting abuses. Id. §4712(a)(1). And § 4712 creates
an administrative apparatus to review whistleblowers’
complaints and to afford them administrative remedies.
Id. § 4712(b). Section 4712 further specifies that “[a]n
action under this paragraph may not be brought more
than two years after the date on which remedies”—that
is, administrative remedies— “are deemed to have been
exhausted.” Id. § 4712(c)(2) (emphasis added). Thus, the
text and structure of § 4712 make clear that a jury trial
is one way to vindicate a whistleblower’s statutory rights
after the whistleblower exhausts administrative remedies;
the jury trial is not itself a “right” or “remedy” created
by § 4712.
B.
A long line of Supreme Court precedent confirms
our interpretation of § 4712. Start with 14 Penn Plaza
LLC v. Pyett, 556 U.S. 247, 129 S. Ct. 1456, 173 L. Ed.
2d 398 (2009). The question presented was whether the

10a
Appendix A
FAA required enforcement of a “provision in a collectivebargaining agreement that clearly and unmistakably
require[ed] union members to arbitrate claims arising
under the Age Discrimination in Employment Act of 1967
(ADEA).” Id. at 251. The Court held yes. Id. at 274.
In so holding, the Court dismantled an argument much
like Robertson’s. Pyett claimed that the ADEA provided
“a ‘[substantive] right’ to proceed in court.” Id. at 259
(alteration in original; quoting 29 U.S.C. § 626(f)(1)). And
ADEA said that “[a]n individual may not waive any right
or claim under this chapter unless the waiver is knowing
and voluntary.” 29 U.S.C. § 626(f)(1). No matter, the Court
said. “[T]he agreement to arbitrate ADEA claims is not
the waiver of a substantive right as that term is employed
in the ADEA.” 14 Penn Plaza, 556 U.S. at 259 (quotation
omitted). For that reason, the Court criticized an earlier
decision for “confus[ing] an agreement to arbitrate
those statutory claims with a prospective waiver of the
substantive right.” Id. at 265 (discussing Alexander v.
Gardner-Denver Co., 415 U.S. 36, 94 S. Ct. 1011, 39 L.
Ed. 2d 147 (1974)).
The Court took pains to correct that confusion: “The
decision to resolve ADEA claims by way of arbitration
instead of litigation does not waive the statutory right to
be free from workplace age discrimination; it waives only
the right to seek relief from a court in the first instance.”
Id. at 265-66; see also Circuit City Stores, Inc. v. Adams,
532 U.S. 105, 123, 121 S. Ct. 1302, 149 L. Ed. 2d 234
(2001). On that account, the “right” to a judicial forum
wasn’t a “right” protected by the waiver limitation at all.

11a
Appendix A
14 Penn Plaza, 556 U.S. at 259; see also McLeod v. Gen.
Mills, Inc., 856 F.3d 1160, 1164 (8th Cir. 2017) (holding
ADEA’s antiwaiver provision “refers narrowly to waiver
of substantive ADEA rights or claims—not, as the former
employees argue, the ‘right’ to a jury trial or the ‘right’
to proceed in a class action”).
CompuCredit teaches the same lesson. There, the
issue was whether arbitration could be compelled for
claims under the Credit Repair Organizations Act
(“CROA”). CompuCredit, 565 U.S. at 96 (discussing 15
U.S.C. §§ 1679 et seq.). CROA provided a private cause
of action to those aggrieved by the conduct of credit
repair organizations. Id. at 98. The statute also had an
antiwaiver provision. It declared that “[a]ny waiver by
any consumer of any protection provided by or any right
of the consumer under this subchapter” was “void” and
could “not be enforced by any Federal or State court or
any other person.” 15 U.S.C. § 1679f(a).
Nonetheless, the Court rejected the notion that
CROA “provide[d] consumers with a ‘right’ to bring
an action in court.” CompuCredit, 565 U.S. at 100. The
statute’s references to court proceedings didn’t change
that outcome. The Court observed that “[i]t is utterly
commonplace for statutes that create civil causes of action
to describe the details of those causes of action, including
the relief available, in the context of a court suit.” Ibid.
So “[i]f the mere formulation of the cause of action in this
standard fashion were sufficient to establish the contrary
congressional command overriding the FA A, valid
arbitration agreements covering federal causes of action

12a
Appendix A
would be rare indeed.” Id. at 100-01 (quotation omitted).
Of course, they are not rare. See id. at 101 (citing Gilmer,
500 U.S. at 28; Shearson/Am. Exp., Inc. v. McMahon, 482
U.S. 220, 240, 107 S. Ct. 2332, 96 L. Ed. 2d 185 (1987);
Mitsubishi Motors, 473 U.S. at 637). Relying on those
holdings, the CompuCredit Court determined that the
waiver of “initial judicial enforcement” wasn’t a waiver of
a right covered by the antiwaiver provision. Ibid.
These cases reflect the Supreme Court’s dogged
insistence that Congress speak with great clarity when
overriding the FAA. See, e.g., Epic Sys., 138 S. Ct. at
1627. That long line of decisions has also given Congress
even more reason to use pellucid language in antiwaiver
provisions. Cf. CompuCredit, 565 U.S. at 104 n.4
(observing that a line of cases dating back decades gave
Congress reason to write clear antiwaiver provisions);
id. at 116 (Ginsburg, J., dissenting) (“Our decisions have
increasingly alerted Congress to the utility of drafting
antiwaiver prescriptions with meticulous care.”). As the
Court observed in Epic Systems, Congress has “shown
that it knows how to override the Arbitration Act when
it wishes.” 138 S. Ct. at 1626. It didn’t do that with 41
U.S.C. § 4712.
C.
The Supreme Court has also said legislative history
is a data point in this inquiry. See Mitsubishi Motors, 473
U.S. at 628. But cf. CompuCredit, 565 U.S. at 96-105 (not
discussing legislative history). Both parties zero in on
the same slice of legislative history—a prior Senate draft

13a
Appendix A
version of the antiwaiver provision. It said: “The rights and
remedies provided for in this section may not be waived by
any agreement, policy, form, or condition of employment,
including by any predispute arbitration agreement, other
than an arbitration provision in a collective bargaining
agreement.” 158 Cong. Rec. S6142 § 844 (Sept. 11, 2012)
(Senate Amendments to H.R. 4310) (emphasis added). The
House rejected that italicized language.
The Supreme Court has told us that such drafting
history “tells us nothing.” Murphy v. Smith, 138 S. Ct. 784,
790 n.2, 200 L. Ed. 2d 75 (2018). The legislators who voted
to drop the italicized “including” clause might’ve thought
it was “flabby duplication.” Ibid. Or perhaps they dropped
it because they substantively disagreed with it. See ibid.
“There is no way to know, and we will not try to guess.”
Ibid. And whatever that deletion might (or might not)
mean, this wee snippet of legislative history can’t provide
anything like the clarity needed to override the FAA. Cf.
CompuCredit, 565 U.S. at 103 (noting that if Congress
meant to displace arbitration provisions, “it would have
done so in a manner less obtuse than what respondents
suggest”); Azar v. Allina Health Servs., 139 S. Ct. 1804,
1815, 204 L. Ed. 2d 139 (2019) (“So in the end and at most,
we are left with exactly the kind of murky legislative
history that we all agree can’t overcome a statute’s clear
text and structure.”). Therefore, § 4712’s history does
nothing to change our reading of its plain text.
III.
The next question is whether the arbitration policy
covers Robertson’s claims against Intratek, Fahami, and

14a
Appendix A
Rininger. It plainly does for the first two. It plainly does
not for the third one.
A.
We start with Intratek and its CEO Fahami. Intratek,
Fahami, and Robertson are all governed by an arbitration
policy that Robertson signed at the beginning of his
employment. The relevant text of the arbitration policy
says:
Any controversy, dispute or claim between any
employee and the Company, or its officers, agents
or other employees related to employment, shall
be settled by binding arbitration, at the request
of either party. . . .
The Claims which are to be arbitrated under
this Policy include, but are not limited to claims
for wages and other compensation, claims for
breach of contract (express or implied), claims
for violation of public policy, tort claims, and
claims for discrimination and/or harassment
(including, but not limited to, race, religious
creed, color, national origin, ancestry, physical
disability, mental disability, medical condition,
marital status, age, pregnancy, sex or sexual
orientation) to the extent allowed by law, and
claims for violation of any federal, state, or
other government law, statute, regulation,
or ordinance, except for claims for workers’
compensation and unemployment insurance
benefits.

15a
Appendix A
Robertson makes two arguments. Both border
on frivolous. First, he says the policy applies to “any
employee,” so it does not apply to Robertson because
Intratek fired him. But the policy expressly mentions
claims for unemployment insurance benefits. If the policy
only covered claims by current employees, it wouldn’t need
to mention unemployment at all. We refuse to read that
clause as surplusage. See Hawthorne Land Co. v. Equilon
Pipeline Co., LLC, 309 F.3d 888, 893 (5th Cir. 2002) (“A
contract should be interpreted so as to avoid neutralizing
or ignoring a provision or treating it as surplusage.”);
Ewing Constr. Co., Inc. v. Amerisure Ins. Co., 420 S.W.3d
30, 37 (Tex. 2014) (similar).
Second, Robertson argues that the arbitration policy
expressly applies to specified claims and makes no mention
of the wrongful-termination and tortious-interference
claims he brought against Intratek. Robertson’s premise
is wrong because the policy explicitly covers claims under
“any federal . . . law” (like Robertson’s claim under § 4712),
as well as “state . . . law” and “tort” (like Robertson’s
claims for wrongful termination and tortious interference).
Moreover, the policy applies to claims that “include, but
are not limited to,” the specified examples. The policy also
applies to “[a]ny controversy, dispute or claim between any
employee and the Company, or its officers, agents or other
employees related to employment.” And Robertson cannot
seriously contest that his claims are “related to [his]
employment” at Intratek. 2 The policy plainly applies to
2. Consider, for example, Robertson’s tortious-interference
claim. Robertson alleges that Intratek and Fahami first fired him
and then defamed him to his would-be future business partners.

16a
Appendix A
Robertson’s claims against Intratek. See Neal v. Hardee’s
Food Sys., Inc., 918 F.2d 34, 37 (5th Cir. 1990).
B.
The same is not true of Robertson’s claims against
Rininger. Rininger is a VA official. He therefore (obviously)
never signed any employment contract with Intratek,
much less an employment-related arbitration agreement.
And although nonsignatories can be compelled to
arbitrate under certain conditions, see Bridas S.A.P.I.C.
v. Gov’t of Turkmenistan, 345 F.3d 347, 355-56 (5th Cir.
2003), Robertson never moved to arbitrate his claims
against Rininger. Nor did the district court explain any
basis (lawful or otherwise) for compelling arbitration of
Robertson’s claims against Rininger. It’s with good reason,
then, that neither Rininger nor Intratek even attempt to
explain how claims against Rininger could be arbitrable.
The district court’s decision to compel arbitration of these
claims was erroneous.
IV.
Finally, we face the question of whether the district
court abused its discretion by denying Robertson’s motion
to amend his complaint. It did not.
Had Robertson’s relationship with his employer not gone awry,
Intratek and Fahami would’ve lacked a motive to defame him.
What Robertson calls a “campaign of tortious interference,” was, as
counsel acknowledged, a “response to [Robertson] opposing illegal
activity . . . while he was employed” at Intratek. Oral Arg. 12:49
to 13:01. Thus, the content and cause of the “campaign of tortious
interference” both relate to Robertson’s employment with Intratek.

17a
Appendix A
Rule 15 says courts “should freely give leave [to
amend] when justice so requires.” Fed. R. Civ. P. 15(a)(2).
Though that’s a generous standard, “leave to amend can
be properly denied where there is a valid justification.”
Carroll v. Fort James Corp., 470 F.3d 1171, 1175 (5th Cir.
2006). Valid justifications include undue delay, bad faith,
and dilatory motive. See Cantu v. Moody, 933 F.3d 414, 424
(5th Cir. 2019) (quotation omitted). The district court also
may consider “whether the facts underlying the amended
complaint were known to the party when the original
complaint was filed.” Southmark Corp. v. Schulte Roth &
Zabel (In re Southmark Corp.), 88 F.3d 311, 316 (5th Cir.
1996). We review denial of leave to amend pleadings for
abuse of discretion. Filgueira, 734 F.3d at 422.
The district court denied Robertson leave to add
his company (Robertsontek) as a co-plaintiff. It’s not
as if Robertson was previously unaware of his own
company’s existence or potential interest in the case. Nor
was Robertson unaware of the risk that a federal court
would enforce his arbitration agreement with Intratek.
Still he waited nine months—until the magistrate judge
recommended compelling arbitration—to move for leave
to add a party who could not be compelled to arbitrate.
That led the district court to conclude that Robertson’s
motion was an untimely “tactical maneuver” meant to
“challenge the effect of the Report and Recommendation”
by preventing arbitration of the claims against Intratek
and Fahami. That was not an abuse of discretion. See
Cantu, 933 F.3d at 424; Whitaker v. City of Houston, 963
F.2d 831, 836 (5th Cir. 1992).

18a
Appendix A
Nor can Robertson demand leave to amend under Rule
19. That rule requires the joinder of necessary parties
so long as they won’t deprive the court of subject-matter
jurisdiction. Fed. R. Civ. P. 19(a)(1); see also Lincoln
Prop. Co. v. Roche, 546 U.S. 81, 90, 126 S. Ct. 606, 163
L. Ed. 2d 415 (2005) (“Rule 19 provides for the joinder of
parties who should or must take part in the litigation to
achieve a just adjudication.” (quotation omitted)). “Rule
19 is designed to protect the interests of absent persons
as well as those already before the court from multiple
litigation or inconsistent judicial determinations.” 7
Charles A lan Wright, A rthur R. Miller & M ary K ay
K ane, Federal Practice & Procedure § 1602, at 22 (3d
ed. 2001) (emphasis added).
On this record, however, Rule 19 is inapplicable. The
district court described Robertsontek as Robertson’s
“alter ego.” Because Robertsontek was merely Robertson’s
alter ego, it wasn’t absent from or necessary to the suit.
The district court’s judgment is AFFIRMED in part,
REVERSED in part, and REMANDED for further
proceedings consistent with this opinion.

19a
B the UNITED
Appendix B —Appendix
ORDER of
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS, AUSTIN DIVISION,
FILED JULY 30, 2019
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
CAUSE NO. A-18-CV-373-LY
JAMES W. ROBERTSON SR.,
Plaintiff,
v.
INTRATEK COMPUTER, INC., ALLAN FAHAMI,
AND ROGER RININGER,
Defendant.
July 30, 2019, Decided
July 30, 2019, Filed
ORDER ON REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Before the court in the above-styled and numbered
case is Defendants Intratek Computer, Inc. and Allen
Fahami’s Motion to Stay and Compel Arbitration filed
September 28, 2018 (Dkt. No. 13); Plaintiff’s Response in
Opposition to Motion filed October 3, 2018 (Dkt. No. 14);
and Defendants Reply to Response to Motion filed October

20a
Appendix B
10, 2018 (Dkt. No. 16). The motion, response, and reply
were referred to the United States Magistrate Judge for
findings and recommendations. See 28 U.S.C. § 636(b);
Fed. R. Civ. P. 72; Loc. R. W.D. Tex. Appx. C, R. 1(d).
T he mag i st rat e judge f i led h i s Repor t a nd
Recommendation on December 10, 2018 (Dkt. No.
17). Plaintiff’s Objections to the Magistrate Court’s
Recommendation to Compel Arbitration and Dismiss
Plaintiff’s Claims Against Intratek Computer, Inc. and
Allan Fahami were filed on December 20, 2018 (Dkt.
No. 18). Defendant’s Response to Plaintiff’s Objections
to the Magistrate Court’s Recommendation to Compel
Arbitration and Dismiss Plaintiff’s Claims Against
Intratek Computer, Inc. and Allen Fahami was filed on
December 26, 2018 (Dkt. No. 19). Plaintiff’s Reply to
Defendant’s Response to His Objections to the Magistrate
Court’s Recommendation was filed on January 3, 2019
(Dkt. No. 22).
On January 29, 2019, Plaintiff James W. Robertson Sr.
filed Plaintiff’s Motion for Leave to File his First Amended
Complaint (Dkt. No. 23). Defendants Intratk Computer,
Inc. and Allen Fahami’s Response to Plaintiff’s Motion
for Leave to File Amended Complaint was filed February
5, 2019 (Dkt. No. 24). Plaintiff’s Reply to Defendants’
Intratek and Fahami’s Response was filed February 11,
2019 (Dkt. No. 26). Defendant Roger Rininger’s Response
in Opposition to Plaintiff’s Motion for Leave to File First
Amended Complaint was filed February 12, 2019 (Dkt. No.
27). Plaintiff’s Reply to Defendant Rininger’s Response
was filed February 19, 2019 (Dkt. No. 34).

21a
Appendix B
In light of Robertson’s objections, the court has
undertaken a de novo review of the entire case file
and finds that the magistrate judge’s Report and
Recommendation should be approved and accepted by
the court for substantially the reasons stated therein. In
addition, the court finds that Robertson’s motion for leave
to amend was clearly filed to avoid dismissal of the case as
recommended by the magistrate judge in his Report and
Recommendation and therefore shall be denied.
The magistrate judge recommends that the motion
to compel arbitration be granted and that the parties be
directed to proceed to arbitration according to the terms
of the arbitration policy. The magistrate judge further
recommends that the motion to stay be denied and that the
case be dismissed without prejudice. Robertson objects
to the magistrate judge’s recommendation, arguing that:
(1) wrongful termination claims are not covered by
the plain language of the Intratek arbitration policy,
(2) Section 4712(c) of Title 41 of the United States Code
expressly prohibits employers from requiring employees
to waive any rights and remedies under the statute as a
condition of employment, (3) the legislative history shows
that Congress intended Section 4712(c)(7) to prohibit
arbitration policies that are mandatory conditions of
employment, (4) the arbitration policies does not cover
former employees or their lawsuits regarding independent,
non-employment related torts and that the tortious
interference alleged to have been committed by Intratek
does not relate to employment, and (5) if arbitration is
compelled, dismissal is inappropriate because not all
claims are subject to arbitration.

22a
Appendix B
Robertson’s wrongful termination and tortious
interference claims are covered by the arbitration policy
signed by the parties. Broad arbitration language is
capable of “expansive reach,” and “courts have held that it
is only necessary that the dispute ‘touch’ matters covered
by the contract to be arbitrable.” Pennzoil Exploration &
Prod. Co. v. Ramco Energy Ltd., 139 F.3d 1061, 1068 (5th
Cir. 1998). Further, “any doubts concerning the scope of
arbitrable issues should be resolved in favor of arbitration.”
Safer v. Nelson Fin. Group Inc., 422 F.3d 289, 294 (5th Cir.
2005) (internal quotation marks and citation omitted). The
magistrate judge determined that the arbitration policy
signed by the parties was broad, that the arbitration policy
survived post-termination, and that Robertson failed to
sustain his burden to show that the arbitration policy does
not cover his wrongful discharge or tortious interference
claims. The court agrees. Robertson’s first and fourth
objections are overruled.
To override the Federal Arbitration Act’s mandate
that federal statutory claims are arbitrable, congressional
commands must be done with clarity. Courts must also
keep in mind that “questions of arbitrability must be
addressed with a healthy regard for the federal policy
favoring arbitration.” Gilmer v. Interstate/Johnson
Lane Corp., 500 U.S. 20, 26, 111 S. Ct. 1647, 114 L. Ed.
2d 26 (1991) (internal citations and quotations omitted).
Because Congress did not clearly prohibit arbitration in
Section 4712(c)(7), the court overrules Robertson’s second
objection.

23a
Appendix B
This court agrees with the magistrate judge’s
interpretation of the legislative history of Section 4712(c)
(7). The removal of the language that would have precluded
arbitration under the statute shows that Congress did
not intend to prohibit arbitration of whistleblower claims
under the statute. Robertson’s third objection is overruled.
Because all of Robertson’s claims are subject to
arbitration, the court has the authority to dismiss the
case. This court agrees with the magistrate jduge’s
recommendation that the case should be dismissed without
prejudice. Robertson’s fifth objection is overruled.
Decisions concerning motions to amend are entrusted
to the discretion of the district court. See Smith v. EMC
Corp., 393 F.3d 590, 595 (5th Cir. 2004). Rule 15(a) of the
Federal Rules of Civil Procedure instructs that “leave
shall be freely given when justice so requires.” However,
the district court may consider undue delay, bad faith
or dilatory motive on the part of the movant, repeated
failure to cure deficiencies by amendments previously
allowed, undue prejudice to the opposing party by virtue
of allowance of the amendment, and futility of amendment.
Whitaker v. City of Houston, Tex., 963 F.2d 831, 836 (5th
Cir. 1992) (citing Foman v. Davis, 371 U.S. 178, 182, 83 S.
Ct. 227, 9 L. Ed. 2d 222 (1962)). Additionally, in exercising
its discretion to deny leave to amend a complaint, the
district court may consider whether the facts or additional
parties underlying the amended complaint were known
when the original complaint was filed. See Matter of
Southmark Corp., 88 F.3d 311, 316 (5th Cir. 1996).

24a
Appendix B
The court finds that Robertson’s motion for leave is
untimely in light of the procedural posture of this action.
See Mayeaux v. Louisiana Health Serv. & Indem. Co.,
376 F.3d 420, 427 (5th Cir. 2004). The court cannot help
but conclude that Robertson’s proposal to add his alter
ego, Robertson Technologies, Inc., amounts a tactical
maneuver to avert the real possibility that this action will
be compelled to arbitration. Robertson made the strategic
decision to defend his complaint as filed until nearly two
months after the Report and Recommendation was filed,
even though he had been long apprised of Defendants’
argument that his claims were subject to arbitration.
Robertson cannot benefit from a “wait and see” approach
as to whether he will request leave to amend, see Goldstein
v. MCI Worldcom, 340 F.3d 238, 255 n. 6 (5th Cir. 2003),
where the result, and the apparent intent, is to challenge
the effect of the Report and Recommendation.
IT IS THEREFORE ORDERED that Plaintiff’s
Objections to the Magistrate Court’s Recommendation
to Compel Arbitration and Dismiss Plaintiff’s Claims
Against Intratek Computer, Inc. and Allan Fahami filed
December 20, 2018 (Dkt. No. 18) are OVERRULED.
IT IS FURTHER ORDERED that the Report and
Recommendation of the United States Magistrate Judge
(Dkt. No. 17) is ACCEPTED AND ADOPTED by the
court.
IT IS FURTHER ORDERED that Plaintiff’s Motion
for Leave to File his First Amended Complaint filed
January 29, 2019 (Dkt. No. 23) is DENIED.

25a
Appendix B
IT IS FURTHER ORDERED that Defendant’s
Motion to Stay and Compel Arbitration is GRANTED IN
PART AND DENIED IN PART. The motion to compel
arbitration is GRANTED and the parties are directed
to proceed to arbitration according to the terms of the
arbitration policy. The motion to stay is DENIED, and the
case is DISMISSED WITHOUT PREJUDICE.
SIGNED this 30th day of July, 2019.
/s/ Lee Yeakel			
LEE YEAKEL
UNITED STATES DISTRICT JUDGE

26a
Appendix
C
APPENDIX C
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF TEXAS,
AUSTIN DIVISION, FILED DECEMBER 10, 2018
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS,
AUSTIN DIVISION
A-18-CV-373-LY
JAMES W. ROBERTSON SR.,
v.
INTRATEK COMPUTER, INC., ALLAN
FAHAMI, AND ROGER RININGER
December 10, 2018, Decided;
December 10, 2018, Filed
REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
TO: THE HONORABLE LEE YEAKEL
UNITED STATES DISTRICT JUDGE
Before the Court are Defendants’ Motion to Stay
and Compel A rbitration (Dkt. No. 13); Plaintiff ’s
Response (Dkt. No. 14); and Defendant’s Reply (Dkt.
No. 16). The District Court referred the above-motion
to the undersigned Magistrate Judge for report and
recommendation pursuant to 28 U.S.C. §636(b)(1)(B), Fed.

27a
Appendix C
R. Civ. P. 72, and Rule 1(d) of Appendix C of the Local
Court Rules.
I. GENERAL BACKGROUND
James W. Robertson Sr. is a former employee of
Intratek Computer, Inc., a California based corporation
which provides information technology services to
various government agencies, including the Department
of Veterans’ A ffairs (“ VA”). Robertson worked at
Intratek as a SharePoint administrator/developer and
InfoPath Developer/SME from July 11, 2011, until he was
terminated in September of 2015. Robertson alleges that
he witnessed the president and CEO of Intratek, Allan
Fahami, bribe VA officials, including Defendant Roger
Rininger, with lavish dinners, happy hours and trips in
order to obtain lucrative contracts with the VA. Robertson
further alleges that Fahami asked Robertson to violate
his non-disclosure agreements with his former employers
to get a competitive advantage in obtaining valuable
contracts with the VA. Robertson contends that he refused
to violate such agreements and complained to Fahami that
he and other employees were violating the law. Robertson
alleges a week later he was fired. On October 7, 2015,
Robertson informed the Office of the Inspector General for
Veterans Affairs that he had been fired in retaliation for
having complained about the company’s illegal activities.
Robertson further alleges that after he was terminated,
Intratek and Fahami sabotaged Robertson’s business
contracts and potential business contracts.

28a
Appendix C
On May 7, 2018, Robertson filed this lawsuit against
Intratek, Fahami and VA employee Roger Rininger,
alleging a whistleblower claim under 41 U.S.C. § 4712,
tortious interference with prospective contract or business
relations, and tortious interference with a contract.
Defendants move pursuant to the Federal Arbitration Act
(“FAA”) to stay the case and compel arbitration, asserting
that Robertson’s claims are covered by a valid and
enforceable arbitration agreement. Robertson concedes
that he agreed to the arbitration policy but argues that the
policy does not apply to the claims alleged in this lawsuit.
II. STANDARD OF REVIEW
Congress enacted the FA A Act in response to
widespread judicial hostility to arbitration. CompuCredit
Corp. v. Greenwood, 565 U.S. 95, 97, 132 S. Ct. 665, 181
L. Ed. 2d 586 (2012). As relevant here, the Act provides:
A written provision in any maritime transaction
or contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or
transaction . . . shall be valid, irrevocable, and
enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.
9 U.S.C. § 2. The FA A requires courts to enforce
arbitration agreements according to their terms.
CompuCredit Corp., 565 U.S. at 98. The FAA establishes
“a liberal federal policy favoring arbitration agreements.”
Id. (quoting Moses H. Cone Memorial Hospital v. Mercury

29a
Appendix C
Constr. Corp., 460 U.S. 1, 24, 103 S. Ct. 927, 74 L. Ed.
2d 765 (1983)). “That is the case even when the claims
at issue are federal statutory claims, unless the FAA’s
mandate has been ‘overridden by a contrary congressional
command.’” Id. (quoting Shearson/American Express Inc.
v. McMahon, 482 U.S. 220, 226, 107 S. Ct. 2332, 96 L. Ed.
2d 185 (1987)).
[W]here the contract contains an arbitration
clause, there is a presumption of arbitrability
in the sense that “[a]n order to arbitrate the
particular grievance should not be denied
unless it may be said with positive assurance
that the arbitration clause is not susceptible
of an interpretation that covers the asserted
dispute. Doubts should be resolved in favor of
coverage.”
AT&T Techs., Inc. v. Commc’ns Workers of Am., 475
U.S. 643, 650, 106 S. Ct. 1415, 89 L. Ed. 2d 648 (1986)
(quoting United Steelworkers of Am. v. Warrior & Gulf
Nav. Co., 363 U.S. 574, 582-83, 80 S. Ct. 1347, 4 L. Ed. 2d
1409 (1960)). Because of the strong presumption in favor
of arbitration, the party opposing arbitration bears the
burden of proving that the agreement is invalid or that
the claims are outside the scope of the agreement. Carter
v. Countrywide Credit Indus., Inc., 362 F.3d 294, 297 (5th
Cir. 2004).
When faced with a motion to compel arbitration,
courts apply a two-step inquiry. First, the court examines
whether the parties agreed to arbitrate the dispute in
question. “This determination involves two considerations:

30a
Appendix C
(1) whether there is a valid agreement to arbitrate between
the parties; and (2) whether the dispute in question falls
within the scope of that arbitration agreement.” Webb v.
Investacorp, Inc., 89 F.3d 252, 258 (5th Cir. 1996). Second,
courts analyze “whether legal constraints external to the
parties’ agreement foreclosed the arbitration of those
claims.” Mitsubishi Motors Corp. v. Soler Chrysler—
Plymouth, Inc., 473 U.S. 614, 628, 105 S. Ct. 3346, 87 L.
Ed. 2d 444 (1985) . The parties in this case only dispute
whether the claims in this lawsuit fall within the scope of
the arbitration agreement.
III. ANALYSIS
The arbitration policy contained in the Intratek
Employee Handbook provides, in relevant part, the
following:
2.1 ARBITRATION
Any controversy, dispute or claim between
any employee and the Company, or its
officers, agents or other employees related
to employment, shall be settled by binding
arbitration, at the request of either party.
Arbitration shall be the exclusive method for
resolving any dispute; provided, however, that
either party may request provisional relief from
a court of competent jurisdiction, as provided
in California Code of Civil Procedure section
1281.8. The arbitrability of any controversy,
dispute or claim under this Policy shall be

31a
Appendix C
determined by application of the substantive
provisions of the Federal Arbitration Act (9
U.S.C. sections 1 and 2) and by application of
the procedural provisions of the California
Arbitration Act.
The Claims which are to be arbitrated under
this Policy include, but are not limited to claims
for wages and other compensation, claims for
breach of contract (express or implied), claims
for violation of public policy, tort claims, and
claims for discrimination and/or harassment
(including, but not limited to, race, religious
creed, color, national origin, ancestry, physical
disability, mental disability, medical condition,
marital status, age, pregnancy, sex or sexual
orientation) to the extent allowed by law, and
claims for violation of any federal, state, or
other government law, statute, regulation,
or ordinance, except for claims for workers’
compensation and unemployment insurance
benefits.
***
Both the Company and employees understand
that by using arbitration to resolve disputes
they are giving up any right that they may have
to a judge or jury trial with regard to all issues
concerning employment.
Dkt. No. 13-2 at 2-3.

32a
Appendix C
On June 17, 2011, Robertson signed an “Acknowledgment
of Receipt of Policy And Agreement to A rbitrate
Employment Disputes,” acknowledging that he received
a copy of the arbitration policy contained in the Employee
Handbook. The acknowledgment contained the following
language:
I hereby agree, pursuant to the policy, to
submit to binding arbitration any employment
related controversy, dispute or claim between
me and the Company, its officers, agents or
other employees, including but not limited
to claims for wages and other compensation,
claims for breach of contract (express or
implied), claims for violation of public policy,
tort claims, and claims for discrimination and/
or harassment (...) to the extent allowed by law,
and claims for violation of any federal, state, or
other governmental law, statute, regulation,
or ordinance, except claims for workers’
compensation and unemployment insurance
benefits.
I understand that by agreeing to arbitration,
I am waiving the right to a trial by jury of
the matters covered by the Arbitration policy.
Dkt. No. 13-1 at 3 (bolding original).
While Robertson acknowledges that he agreed to the
arbitration policy, he contends that it does not apply in this
case because (1) 41 U.S.C. § 4712 prohibits arbitration of

33a
Appendix C
his whistleblower claim; (2) the arbitration policy does
not cover tortious interference with contracts or potential
contracts made by Robertson after he was terminated;
and (3) the arbitration policy does not apply to former
employees.
A. 41 U.S.C. § 4712
Robertson alleges that Defendants retaliated against
him by firing him after he complained about reported
violations of federal law regarding government contracts
in violation of the anti-retaliation provision of the National
Defense Authorization Act (“NDAA”), 41 U.S.C. § 4712(a)
(1).1 Robertson argues that the statute provides him
with a right to a jury trial which cannot be waived by
the arbitration policy. Specifically, Robertson relies on
§ 4712(c)(2) which provides that:
[T]he complainant may bring a de novo action at
law or equity against the contractor or grantee
to seek compensatory damages and other relief
available under this section in the appropriate
district court of the United States, which shall
have jurisdiction over such an action without
regard to the amount in controversy. Such an
action shall, at the request of either party to
the action, be tried by the court with a jury.
1. 41 U.S.C. § 4712(a)(1) prohibits a government contractor from
discriminating against an employee “as a reprisal for disclosing . . .
information that the employee reasonably believes is . . . a violation of law,
rule, or regulation related to a Federal contract.”

34a
Appendix C
41 U.S.C. § 4712(c)(2) (emphasis added). Robertson argues
that this right to a jury trial in federal court cannot be
waived because § 4712(c)(7) states that “[t]he rights and
remedies provided for in this section may not be waived by
any agreement, policy, form, or condition of employment.”
41 U.S.C. § 4712(c)(7).
As noted above, federal statutory claims are arbitrable
unless the FAA’s mandate has been “overridden by a
contrary congressional command.” CompuCredit Corp.,
565 U.S. at 98. In other words, “[h]aving made the bargain
to arbitrate, the party should be held to it unless Congress
itself has evinced an intention to preclude a waiver of
judicial remedies for the statutory rights at issue.” Gilmer
v. Interstate/Johnson Lane Corp., 500 U.S. 20, 26, 111 S.
Ct. 1647, 114 L. Ed. 2d 26 (1991) (internal citations omitted).
“If such an intention exists, it will be discoverable in the
text of the [statute], its legislative history, or an “inherent
conflict” between arbitration and the [statute’s] underlying
purposes.” Id. “[T]he relevant inquiry [remains] whether
Congress . . . precluded arbitration or other nonjudicial
resolution of claims.” D.R. Horton, Inc. v. N.L.R.B., 737
F.3d 344, 360 (5th Cir. 2013) (internal quotations and
citations omitted). The Supreme Court has emphasized
that “[t]hroughout such an inquiry, it should be kept in
mind that questions of arbitrability must be addressed
with a healthy regard for the federal policy favoring
arbitration.” Gilmer, 500 U.S. at 26 (internal citations
and quotations omitted). The party opposing arbitration
bears the burden of showing whether a congressional
command exists. Id. “Any doubts are resolved in favor of
arbitration.” D.R. Horton, 737 F.3d at 360.

35a
Appendix C
Thus, “if Congress intended the substantive protection
afforded [by the statute] to include protection against
waiver of the right to a judicial forum, that intention will
be deducible from text or legislative history.” Mitsubishi,
473 U.S. at 628. Courts have found that when Congress
has decided to override the FAA, they have “done so
with clarity” and have used explicit language preempting
arbitration. As one district court has pointed out, “when
Congress restricts the use of arbitration it usually does
so with ‘clarity,’ such as in the Dodd-Frank Wall Street
Reform and Consumer Protection Act, 15 U.S.C.§ 1226(a)
(2), which provides that ‘[n]o predispute arbitration
agreement shall be valid or enforceable, if the agreement
requires arbitration of a dispute arising under this
section.’” Nelson v. Carl Black Chevrolet of Nashville,
LLC, 2017 U.S. Dist. LEXIS 121714, 2017 WL 3298327,
at *7 (M.D. Tenn. Aug. 2, 2017) (quoting CompuCredit
Corp., 565 U.S. at 103-04).
Robertson can point to no similarly clear provision in
41 U.S.C. § 4712 which unequivocally prohibits arbitration.
As noted, § 4712(c)(7) merely states that the “rights and
remedies provided for in this section may not be waived
by any agreement . . . .” While the Court is unable to find
any case law addressing whether the waiver provision in
§ 4712(c)(7) precludes arbitration of a claim thereunder,
there is a plethora of case law addressing federal
statutes containing similar waiver provisions. Thus, in
CompuCredit Corp., 565 U.S. at 104, the Supreme Court
held that the FAA required the arbitration agreement to
be enforced in a case brought under the Credit Repair
Organization Act (“CROA”) where the statute was silent

36a
Appendix C
on whether claims under the Act can proceed in an
arbitrable forum. The plaintiffs had argued that the nonwaiver provision in the CROA (which provided that “[a]ny
waiver by any consumer of any protection provided by or
any right of the consumer under this subchapter . . . shall
be treated as void; and may not be enforced”) precluded
the case from being sent to arbitration. Id. at at 99. As
Robertson does in this case, the plaintiffs argued that
the statute’s references to a “right” to bring an action in
court showed that Congress intended the statute to create
a right to a judicial forum. The Supreme Court disagreed,
reasoning:
These references cannot do the heavy lifting
that respondents assign them. It is utterly
commonplace for statutes that create civil
causes of action to describe the details of
those causes of action, including the relief
available, in the context of a court suit. If the
mere formulation of the cause of action in this
standard fashion were sufficient to establish the
“contrary congressional command” overriding
the FAA, valid arbitration agreements covering
federal causes of action would be rare indeed.
But that is not the law.
***
Had Congress meant to prohibit these very
common provisions in the CROA, it would have
done so in a manner less obtuse than what
respondents suggest. When it has restricted

37a
Appendix C
the use of arbitration in other contexts, it has
done so with a clarity that far exceeds the
claimed indications in the CROA. See, e.g., 7
U.S.C. § 26(n)(2) (2006 ed., Supp. IV) (“No
predispute arbitration agreement shall be
valid or enforceable, if the agreement requires
arbitration of *104 a dispute arising under
this section”); 15 U.S.C. § 1226(a)(2) (2006 ed.)
(“Notwithstanding any other provision of law,
whenever a motor vehicle franchise contract
provides for the use of arbitration to resolve a
controversy arising out of or relating to such
contract, arbitration may be used to settle
such controversy only if after such controversy
arises all parties to such controversy consent
in writing to use arbitration to settle such
controversy”); cf. 12 U.S.C. § 5518(b) (2006
ed., Supp. IV) (granting authority to the newly
created Consumer Financial Protection Bureau
to regulate predispute arbitration agreements
in contracts for consumer financial products or
services). That Congress would have sought to
achieve the same result in the CROA through
combination of the nonwaiver provision with the
“right to sue” phrase in the disclosure provision,
and the references to “action” and “court” in the
description of damages recoverable, is unlikely.
Because the CROA is silent on whether claims
under the Act can proceed in an arbitrable
forum, the FA A requires the arbitration
agreement to be enforced according to its
terms.

38a
Appendix C
Id. at 100-01, 103-04. See also, Gilmer, 500 U.S. at 29
(arbitration not improper in ADEA case because Congress
“did not explicitly preclude arbitration or other nonjudicial
resolution of claims”); Rodriguez-Depena v. Parts Auth.,
Inc., 877 F.3d 122, 124 (2d Cir. 2017), cert. denied, 138 S. Ct.
2634, 201 L. Ed. 2d 1045 (2018); Khazin v. TD Ameritrade
Holding Corp., 773 F.3d 488, 493 (3rd Cir. 2014); Saari v.
Smith Barney, Harris Upham & Co., 968 F.2d 877, 880-81
(9th Cir.), cert. denied, 506 U.S. 986, 113 S. Ct. 494, 121
L. Ed. 2d 432 (1992) (language in Employee Polygraph
Protection Act that “rights and procedures provided by
this chapter may not be waived by contract or otherwise”
did not preclude arbitration). Thus, “statutory references
to causes of action, filings in court, or allowing suits all
have been found insufficient to infer a congressional
command against application of the FAA.” D.R. Horton,
737 F.3d at 360. The legislative history of 41 U.S.C. § 4712
further demonstrates that Congress did not intend to
prohibit arbitration of whistleblower claims under the
statute. As the Defendants point out, that legislative
history shows that during the proceedings leading to its
adoption, Congress explicitly removed the very sort of
language that would have precluded arbitration under the
statute. Dkt. No. 16 at 3-4. Because Robertson can point
to no language in the text of 41 U.S.C. § 4712 to show that
Congress intended to override the FAA, he has failed to
sustain his burden in this case.
Moreover, courts have found that the “right” to a jury
trial or the “right” to a judicial forum are not substantive
rights but, rather procedural rights which can be validly
waived by an arbitration clause. Thus, in 14 Penn Plaza

39a
Appendix C
LLC v. Pyett, 556 U.S. 247, 265-66, 129 S. Ct. 1456, 173 L.
Ed. 2d 398 (2009), the Supreme Court held that a provision
in a collective-bargaining agreement that required union
members to arbitrate claims under the Age Discrimination
in Employment Act was enforceable as a matter of law.
The Court explained: “[t]he decision to resolve ADEA
claims by way of arbitration instead of litigation does not
waive the statutory right to be free from workplace age
discrimination; it waives only the right to seek relief from
a court in the first instance.” Id. at 265-66. In other words,
“[b]y agreeing to arbitrate a statutory claim, a party does
not forgo the substantive rights afforded by the statute;
it only submits to their resolution in an arbitral, rather
than a judicial, forum.” Gilmer, 500 U.S. at 26 (quoting
Mitsubishi, 473 U.S. at 628).
Similarly, in McLeod v. General Mills, Inc., 856 F.3d
1160 (8th Cir. 2017), the plaintiffs argued that the waiver
provision contained in 29 U.S.C. § 626(f)(1) of the ADEA—
providing that “an individual may not waive any right or
claim under this chapter”—overrode the FAA’s mandate
to enforce the arbitration agreement. Relying on 14 Penn
Plaza, the Eighth Circuit rejected this argument finding
that the “waiver” in § 626(f) “refers narrowly to waiver
of substantive ADEA right or claims—not as the former
employees argue, the ‘right’ to a jury trial or the ‘right’
to proceed in a class action.” Id. at p. 1164-65. The Court
reasoned the following:
The former employees say that § 626(c)(2) gives
them a “right” to a jury trial on ADEA claims.
But 14 Penn Plaza forecloses categorizing

40a
Appendix C
a jury trial as a § 626(f)(1) “right.” Since no
“rights or claims” are waived by agreeing to
bring claims in arbitration, a jury trial is not a
§ 626(f)(1) “right.”
***
Because an individual waives no “rights or
claims” under § 626(f)(1)(C) by agreeing to
bring ADEA claims in arbitration, an individual
similarly waives no “right or claim” under
§ 626(f)(1) by agreeing to bring ADEA claims
in arbitration.
Id. at 1165. The Court concluded that “Section 626(f) is “not
a ‘contrary congressional command’ overriding the FAA’s
mandate to enforce the agreements to arbitrate ADEA
claims.” Id. at 1166. See also, Williams v. Cigna Financial
Advisors, Inc., 56 F.3d 656, 660 (5th Cir. 1995) (rejecting
argument that arbitration clause was unenforceable since
ADEA provided him a right to a jury trial) Thus, “[t]he
provision of a judicial forum for resolution of disputes is
not inconsistent with the provisions of the FAA providing
for an enforceable right of the parties to contractually
agree to resolve those same disputes in an arbitral forum.”
Saari, 968 F.2d at 881.
Based upon the foregoing, the Court finds that
Congress did not intend to override the FAA in this
case and, therefore, 41 U.S.C. § 4712 does not prohibit
enforcement of the Arbitration policy in this case.

41a
Appendix C
B. Tortious Interference Claim
Robertson next argues that the Arbitration policy
does not apply to his tortious interference claims because
those allegations only refer to Intratek’s actions after
he was terminated. Robertson argues that any actions
that occurred after he was terminated from employment
“are not related to employment since they occurred after
employment.” Dkt. No. 14 at 3.
Whether a dispute is covered by the scope of an
arbitration agreement often depends on whether the
language of the provisions is broad or narrow: “Broad
arbitration language governs disputes ‘related to’ or
‘connected with’ a contract, and narrow arbitration
language requires arbitration of disputes that directly
‘arise out of’ a contract.” Pennzoil Exploration & Prod.
Co. v. Ramco Energy Ltd., 139 F.3d 1061, 1067 (5th Cir.
1998). The language of the arbitration policy here is broad,
as it covers “[a]ny controversy, dispute or claim between
any employee and the Company, or its officers, agents or
other employees related to employment . . . .” Dkt. No.
13-2 at 2 (emphasis added). The policy applies to all claims
related to employment including “tort claims” and “claims
of breach of contract (express or implied).” Id. Both the
Supreme Court and the Fifth Circuit have categorized
language similar to the language in this case as broad.
Pennzoil, 139 F.3d at 1067 (citing Prima Paint Corp. v.
Flood & Conklin Mfg. Co., 388 U.S. 395, 397-98, 87 S. Ct.
1801, 18 L. Ed. 2d 1270 (1967). The Fifth Circuit explained
that when parties consent to an arbitration clause that
governs all disputes “arising under” or “relating to” their

42a
Appendix C
agreement, they are expressing their intent that the
arbitration clause reach all aspects of their relationship.
Pennzoil, 139 F.3d at 1067. Broad arbitration clauses
“are not limited to claims that literally ‘arise under the
contract,’ but rather embrace all disputes between the
parties having a significant relationship to the contract
regardless of the label attached to the dispute.” Id.
(internal citation omitted). “Because broad arbitration
language is capable of expansive reach, courts have held
that it is only necessary that the dispute ‘touch’ matters
covered by the contract to be arbitrable.” Id. at 1068.
When determining whether a dispute comes within the
scope of an arbitration agreement, “any doubts concerning
the scope of arbitrable issues should be resolved in favor
of arbitration.” Safer v. Nelson Fin. Group Inc., 422 F.3d
289, 294 (5th Cir. 2005) (internal quotation marks and
citation omitted). The Fifth Circuit has thus held that
“a valid agreement to arbitrate applies ‘unless it can be
said with positive assurance that [the] arbitration clause
is not susceptible of an interpretation which would cover
the dispute at issue.’” Personal Sec. & Safety Sys. Inc. v.
Motorola Inc., 297 F.3d 388, 392 (5th Cir. 2002) (quoting
Neal v. Hardee’s Food Sys., Inc., 918 F.2d 34, 37 (5th Cir.
1990)).
Based upon the foregoing, the Court finds that
Robertson’s tort claims are within the scope of the
broad Arbitration policy in this case. See e.g., Hays v.
HCA Holdings, Inc., 838 F.3d 605, 609 (5th Cir. 2016)
(“[T]ortious interference claims between a signatory to an
arbitration agreement and agents or affiliates of the other
signatory arise more from the contract than general law,

43a
Appendix C
and thus fall on the arbitration side of the scale.”); P&P
Industries, Inc. v. Sutter Corp., 179 F.3d 861, 871(10th
Cir. 1999) (rejecting plaintiff’s argument that tortious
interference with contract claim could never fall within
the scope of an “arising out of or relation to” arbitration
clause); Colt Unconventional Res., LLC v. Resolute Energy
Corp., 2013 U.S. Dist. LEXIS 102411, 2013 WL 3789896, at
*5 (N.D. Tex. July 19, 2013) (rejecting argument that tort
claims were outside scope of arbitration agreement simply
because they were intentional torts, because “whether a
claim falls within the scope of an arbitration agreement
depends on the factual allegations of the complaint instead
of the legal causes of action asserted”).
C. The Survival of the Arbitration Policy PostTermination
Robertson also argues that the arbitration policy
does not apply to his tortious interference claims or
his wrongful discharge claims since those allegations
concern actions that occurred after he was employed and
therefore the allegations do not involve a claim between
“any employee and the Company.” In Litton Financial
Printing Division, Litton Business Systems, Inc. v.
NLRB, the Supreme Court recognized a “presumption
in favor of post-expiration arbitration of matters unless
negated expressly or by clear implication [for] matters and
disputes arising out of the relation governed by contract.”
501 U.S. 190, 204, 111 S. Ct. 2215, 115 L. Ed. 2d 177 (1991)
(internal quotation marks and citation omitted). See also,
Nolde Bros., Inc. v. Local No. 358, Bakery & Confectionery
Workers Union, AFL-CIO, 430 U.S. 243, 255, 97 S. Ct.

44a
Appendix C
1067, 51 L. Ed. 2d 300 (1977). In Nolde Bros., the Supreme
Court held that the employees’ claim for severance pay
arose under the collective bargaining contract and was
subject to resolution under the contractor’s arbitration
terms even though it arose after the contract was
terminated, because
even though the parties could have so provided,
there is nothing in the arbitration clause
that expressly excludes from its operation a
dispute which arises under the contract, but
which is based on events that occur after its
termination. The contract’s silence, of course,
does not establish the parties’ intent to resolve
post-termination grievances by arbitration.
But in the absence of some contrary indication,
there are strong reasons to conclude that the
parties did not intend their arbitration duties to
terminate automatically with the contract. Any
other holding would permit the employer to cut
off all arbitration of severance-pay claims by
terminating an existing contract simultaneously
with closing business operations.
Id. at 252-53. Similarly, the Sixth Circuit has observed
“that the need for an arbitration provision to have postexpiration effect is intuitive, because if ‘the duty to
arbitrate automatically terminated upon expiration of
the contract, a party could avoid his contractual duty
to arbitrate by simply waiting until the day after the
contract expired to bring an action regarding a dispute
that arose while the contract was in effect.’” Huffman v.

45a
Appendix C
Hilltop Companies, LLC, 747 F.3d 391, 395 (6th Cir. 2014)
(quoting Zucker v. After Six, Inc., 174 F. App’x 944, 947-48
(6th Cir. 2006)).
Robertson cannot point to any provision in the
arbitration policy showing that it excludes the arbitration of
claims after Robertson was terminated. See Duge v. Sears,
Roebuck and Co., 2016 U.S. Dist. LEXIS 131204, 2016 WL
5376233 at *7 (W.D. Tex. Sept. 26, 2016) (holding that all
arbitration agreement covered all employment-related
disputes, including those brought post-employment). As
the Supreme Court has reasoned, “the parties’ failure
to exclude from arbitrability contract disputes arising
after termination, far from manifesting an intent to have
arbitration obligations cease with the agreement, affords
a basis for concluding that they intended to arbitrate all
grievances arising out of the contractual relationship.”
Nolde Bros, 430 U.S. at 255. Because the presumptions
favoring arbitrability must be negated “expressly or by
clear implication,” Robertson has failed to sustain his
burden to show that the Arbitration policy does not cover
his wrongful discharge or tortious interference claims.
D. Conclusion
Based upon the foregoing, the Court finds that the
arbitration policy in this case is valid, binding, and
enforceable. As such, the motion to compel arbitration
should be granted. With regard to the disposition of the
case, the Defendants request that the Court stay the case.
The general rule under the FAA is in a case in which
arbitration is ordered, the proceedings are stayed pending

46a
Appendix C
arbitration. See 9 U.S.C. § 3. The Fifth Circuit, however,
has noted that district courts have discretion to dismiss
a case in favor of arbitration when all of the issues raised
before the district court are arbitrable. Fedmet Corp. v.
M/V Buyalyk, 194 F.3d 674, 676 (5th Cir. 1999); see also
Alford v. Dean Witter Reynolds, Inc., 975 F.2d 1161, 1164
(5th Cir. 1992) (“[t]he weight of authority clearly supports
dismissal of the case when all of the issues raised in the
district court must be submitted to arbitration”). As
discussed above, each of Plaintiff’s claims is subject to
arbitration. Thus, the appropriate disposition here would
be to dismiss, not stay, the case.
IV. RECOMMENDATION
The undersigned RECOMMENDS that the District
Cour t GRA NT IN PART A ND DENY IN PART
Defendants’ Intratek Computer, Inc. and Allen Fahami’s
Motion to Stay and Compel Arbitration (Dkt. No. 13).
The Court RECOMMENDS that the motion to compel
arbitration be GRANTED and the parties be directed
to proceed to arbitration according to the terms of the
arbitration policy. The Court further RECOMMENDS
that the motion to stay be DENIED and that instead the
case be DISMISSED WITHOUT PREJUDICE.
V. WARNINGS
The parties may file objections to this Report
and Recommendation. A party filing objections must
specifically identify those findings or recommendations to
which objections are being made. The District Court need

47a
Appendix C
not consider frivolous, conclusive, or general objections.
See Battle v. United States Parole Comm’n, 834 F.2d 419,
421 (5th Cir. 1987).
A party’s failure to file written objections to the
proposed findings and recommendations contained in this
Report within fourteen (14) days after the party is served
with a copy of the Report shall bar that party from de novo
review by the District Court of the proposed findings and
recommendations in the Report and, except upon grounds
of plain error, shall bar the party from appellate review
of unobjected-to proposed factual findings and legal
conclusions accepted by the District Court. See 28 U.S.C.
§ 636(b)(1)(C); Thomas v. Arn, 474 U.S. 140, 150-53, 106
S. Ct. 466, 88 L. Ed. 2d 435 (1985); Douglass v. United
Servs. Auto. Ass’n, 79 F.3d 1415, 1428-29 (5th Cir. 1996)
(en banc).
SIGNED this 10th day of December, 2018.
/s/ Andrew W. Austin
ANDREW W. AUSTIN
UNITED STATES
MAGISTRATE JUDGE

48a
D STATUTORY
APPENDIX D —Appendix
RELEVANT
PROVISIONS
§ 4712. Enhancement of contractor protection from
reprisal for disclosure of certain information
(a) Prohibition of Reprisals.—
(1) In general.—
An employee of a contractor, subcontractor,
grantee, or subgrantee or personal services
contractor may not be discharged, demoted,
or other w ise discriminated against as a
reprisal for disclosing to a person or body
described in paragraph (2) information that
the employee reasonably believes is evidence
of gross mismanagement of a Federal contract
or grant, a gross waste of Federal funds, an
abuse of authority relating to a Federal contract
or grant, a substantial and specific danger to
public health or safety, or a violation of law,
rule, or regulation related to a Federal contract
(including the competition for or negotiation of
a contract) or grant.
(2) Persons and bodies covered.—
The persons and bodies described in this
paragraph are the persons and bodies as
follows:
(A) A Member of Congress or a
representative of a committee of
Congress.

49a
Appendix D
(B) An Inspector General.
(C) The Government Accountability
Office.
(D) A Federal employee responsible
for contract or grant oversight or
management at the relevant agency.
(E) An authorized official of the
Department of Justice or other law
enforcement agency.
(F) A court or grand jury.
(G) A m a n a g e ment of f ic i a l or
other employee of the contractor,
subcontractor, or grantee who has the
responsibility to investigate, discover,
or address misconduct.
(3) Rules of construction.—For the purposes
of paragraph (1)—
(A) an employee who initiates or
provides evidence of contractor,
subcontractor, or grantee misconduct
in any judicial or administrative
proceeding relating to waste, fraud,
or abuse on a Federal contract or
grant shall be deemed to have made a
disclosure covered by such paragraph;
and

50a
Appendix D
(B) a reprisal described in paragraph
(1) is prohibited even if it is undertaken
at the request of an executive branch
official, unless the request takes the
form of a non-discretionary directive
and is within the authority of the
executive branch official making the
request.
(b) Investigation of Complaints.—
(1) submission of complaint.—
A person who believes that the person has been
subjected to a reprisal prohibited by subsection
(a) may submit a complaint to the Inspector
General of the executive agency involved. Unless
the Inspector General determines that the
complaint is frivolous, fails to allege a violation
of the prohibition in subsection (a), or has
previously been addressed in another Federal
or State judicial or administrative proceeding
initiated by the complainant, the Inspector
General shall investigate the complaint and,
upon completion of such investigation, submit a
report of the findings of the investigation to the
person, the contractor or grantee concerned,
and the head of the agency.
(2) Inspector general action.—
(A) Determination or submission
of report on findings.— Except as

51a
Appendix D
provided under subparagraph (B),
the Inspector General shall make
a determination that a complaint is
frivolous, fails to allege a violation
of the prohibition in subsection (a),
or has previously been addressed in
another Federal or State judicial or
administrative proceeding initiated
by the complainant or submit a report
under paragraph (1) within 180 days
after receiving the complaint.
(B) Extension of time.—
If the Inspector General is unable to
complete an investigation in time to
submit a report within the 180-day
period specified in subparagraph
(A) and the person submitting the
complaint agrees to an extension of
time, the Inspector General shall
submit a report under paragraph (1)
within such additional period of time,
up to 180 days, as shall be agreed upon
between the Inspector General and
the person submitting the complaint.
(3) Prohibition on disclosure.—The Inspector
General may not respond to any inquiry or
disclose any information from or about any
person alleging the reprisal, except to the
extent that such response or disclosure is—

52a
Appendix D
(A) made with the consent of the
person alleging the reprisal;
(B) made in accordance with the
provisions of section 552a of title 5 or
as required by any other applicable
Federal law; or
(C ) n e c e s s a r y t o c o n d u c t a n
investigation of the alleged reprisal.
(4) Time limitation.—
A complaint may not be brought under this
subsection more than three years after the date
on which the alleged reprisal took place.
(c) Remedy and Enforcement Authority.—
(1) In general.—Not later than 30 days after
receiving an Inspector General report pursuant
to subsection (b), the head of the executive
agency concerned shall determine whether
there is sufficient basis to conclude that the
contractor or grantee concerned has subjected
the complainant to a reprisal prohibited by
subsection (a) and shall either issue an order
denying relief or shall take one or more of the
following actions:
(A) Order the contractor or grantee
to take affirmative action to abate the
reprisal.

53a
Appendix D
(B) Order the contractor or grantee to
reinstate the person to the position that
the person held before the reprisal,
together with compensatory damages
(including back pay), employment
b enef it s , a nd ot her t er m s a nd
conditions of employment that would
apply to the person in that position if
the reprisal had not been taken.
(C) Order the contractor or grantee to
pay the complainant an amount equal
to the aggregate amount of all costs
and expenses (including attorneys’
fees and expert witnesses’ fees) that
were reasonably incurred by the
complainant for, or in connection with,
bringing the complaint regarding the
reprisal, as determined by the head of
the executive agency.
(2) Exhaustion of remedies.—
If the head of an executive agency issues an
order denying relief under paragraph (1) or
has not issued an order within 210 days after
the submission of a complaint under subsection
(b), or in the case of an extension of time under
paragraph (b)(2)(B), not later than 30 days after
the expiration of the extension of time, and there
is no showing that such delay is due to the bad
faith of the complainant, the complainant shall
be deemed to have exhausted all administrative

54a
Appendix D
remedies with respect to the complaint, and the
complainant may bring a de novo action at law
or equity against the contractor or grantee to
seek compensatory damages and other relief
available under this section in the appropriate
district court of the United States, which shall
have jurisdiction over such an action without
regard to the amount in controversy. Such an
action shall, at the request of either party to
the action, be tried by the court with a jury. An
action under this paragraph may not be brought
more than two years after the date on which
remedies are deemed to have been exhausted.
(3) Admissibility of evidence.—
An Inspector General determination and
an agency head order denying relief under
paragraph (2) shall be admissible in evidence
in any de novo action at law or equity brought
pursuant to this subsection.
(4) Enforcement of orders.—
Whenever a person fails to comply with an
order issued under paragraph (1), the head
of the executive agency concerned shall file
an action for enforcement of such order in the
United States district court for a district in
which the reprisal was found to have occurred.
In any action brought under this paragraph, the
court may grant appropriate relief, including
injunctive relief, compensatory and exemplary
damages, and attorney fees and costs. The

55a
Appendix D
person upon whose behalf an order was issued
may also file such an action or join in an action
filed by the head of the executive agency.
(5) Judicial review.—
Any person adversely affected or aggrieved by
an order issued under paragraph (1) may obtain
review of the order’s conformance with this
subsection, and any regulations issued to carry
out this section, in the United States court
of appeals for a circuit in which the reprisal
is alleged in the order to have occurred. No
petition seeking such review may be filed more
than 60 days after issuance of the order by
the head of the executive agency. Review shall
conform to chapter 7 of title 5. Filing such an
appeal shall not act to stay the enforcement of
the order of the head of an executive agency,
unless a stay is specifically entered by the court.
(6) Burdens of proof.—
The legal burdens of proof specified in section
1221(e) of title 5 shall be controlling for the
purposes of any investigation conducted by an
Inspector General, decision by the head of an
executive agency, or judicial or administrative
proceeding to determine whether discrimination
prohibited under this section has occurred.
(7) Rights and remedies not waivable.—
The rights and remedies provided for in this
section may not be waived by any agreement,
policy, form, or condition of employment.

56a
Appendix D
(d) Notification of Employees.—
The head of each executive agency shall ensure
that contractors, subcontractors, and grantees
of the agency inform their employees in writing
of the rights and remedies provided under this
section, in the predominant native language of
the workforce.
(e) Construction.—
Nothing in this section may be construed
to authorize the discharge of, demotion of,
or discrimination against an employee for a
disclosure other than a disclosure protected
by subsection (a) or to modify or derogate from
a right or remedy otherwise available to the
employee.
(f) Exceptions.—
(1) This section shall not apply to
any element of the int elligence
community, as defined in section 3(4)
of the National Security Act of 1947
(50 U.S.C. 401a(4)).
(2) This section shall not apply to any
disclosure made by an employee of a
contractor, subcontractor, or grantee
of an element of the intelligence
community if such disclosure—

57a
Appendix D
(A) relates to an activity of
an element of the intelligence
community; or
(B) was discovered dur ing
c ont r a c t , s u b c ont r a c t , or
grantee services provided to
an element of the intelligence
community.
(g) Definitions.—In this section:
(1) The term “abuse of authority” means an
arbitrary and capricious exercise of authority
that is inconsistent with the mission of the
executive agency concerned or the successful
performance of a contract or grant of such
agency.
(2) The term “Inspector General” means
an Inspector General appointed under the
Inspector General Act of 1978 and any Inspector
General that receives funding from, or has
oversight over contracts or grants awarded for
or on behalf of, the executive agency concerned.
(h) Construction.—
Nothing in this section, or the amendments
made by this section, shall be construed
to provide any rights to disclose classified
information not otherwise provided by law.

